U.S. Small Business Administration
Office of Inspector General



       Semiannual Report to Congress
               Spring 2012




       October 1, 2011 – March 31, 2012
                                 U.S. SMALL BUSINESS ADMINISTRATION
                                    OFFICE OF INSPECTOR GENERAL
                                          WASHINGTON, D.C.



I am pleased to present the U.S. Small Business Administration (SBA) Office of Inspector General’s
(OIG) Spring 2012 Semiannual Report to Congress, which provides a summary of the OIG’ s activities
from October 1, 2011 to March 31, 2012. As our statistics indicate, the OIG’ s efforts to eliminate fraud,
waste, and abuse in SBA programs during this period continues to significantly benefit taxpayers.

During this reporting period, the OIG issued 12 reports containing 95 recommendations for improving
SBA operations and reducing fraud and unnecessary losses in the Agency’s programs. In addition, OIG
investigations resulted in 26 indictments and 32 convictions. Overall, the OIG achieved monetary
recoveries and savings of $34,279,527 from recommendations that funds be put to better use agreed to by
management, disallowed costs agreed to by management, court ordered and other investigative recoveries
and fines, and loans or contracts not made as a result of investigations and name checks.

In achieving these results, the OIG dedicated its auditing and investigative resources toward the principal
program areas of the SBA. Several noteworthy investigations and reviews included in this report are
highlighted below.

       Four Virginia men, including two longtime employees of the U.S. Army Corps of Engineers,
        were arrested on October 4, 2011, on charges stemming from an indictment that accuses them of
        taking part in a conspiracy involving more than $20 million in bribes and kickback payments and
        the planned steering of a $780 million government contract to a favored contractor. To date,
        several of those arrested have entered guilty pleas. Additionally, the Government has seized for
        forfeiture or recovery approximately $7.2 million in cash, real estate, luxury cars, and fine
        jewelry. Money judgments in favor of the U.S. totaling $1.396 million also are pending court
        order.

       In November 2011, a federal grand jury indicted an investment firm and its owners. They were
        charged with a scheme to fraudulently obtain business loans guaranteed by the SBA, with
        resulting losses alleged to be over $37 million. On February 28, 2012, one of the conspirators
        pled guilty to conspiracy to commit bank fraud, in connection with the scheme, with resulting
        losses of at least $1.3 million.

       On March 15, 2012, we reported the results of our review of SBA’s compliance with the
        Improper Payments Elimination and Recovery Act. Immediate agency management attention
        was recommended in four of the six program areas to improve the accuracy and completeness of
        reporting, the sufficiency of improper payments recapturing activities, and the quality of
        corrective action plans. The four programs identified were 7(a) approvals,7(a) purchases, the 504
        program, and disbursements and contracting.

I would like to thank the OIG’ s employees for their outstanding efforts to promote economy, efficiency,
effectiveness, and integrity in SBA programs and operations. We look forward to continuing to work
with Administrator Mills and SBA’s management to address the issues and challenges facing the agency.



Peggy E. Gustafson
Inspector General
This page intentionally blank.
                                     Table of Contents

Overview of the SBA and the OIG                                                           1

Management Challenges                                                                     2

Small Business Access to Capital                                                          3

Disaster Loan Program                                                                     8

Small Business Development, Contracting, Education and Training                          10

Agency Management                                                                        14

Other Significant OIG Activities                                                         19

Highlights: 6-Month Productivity Statistics: October 1, 2011-March 31, 2012              22

Appendix I: OIG Reports Issued October 1, 2011 through March 31, 2012                    24

Appendix II: OIG Reports with Questioned Costs                                           26

Appendix III: OIG Reports with Recommendations that Funds be put to Better Use           26

Appendix IV: OIG Reports with Non-Monetary Recommendations                               27

Appendix V: Reports from Prior Periods with Overdue Management Decisions                 27

Appendix VI: OIG Reports without Final Action as of March 31, 2012                       28

Appendix VII: Summary of Significant Recommendations from Prior Semiannual
Reporting Periods without Final Action as of March 31, 2012                              31

Appendix VIII: Summary of Significant Recommendations October 1, 2011 - March 31, 2012   42

Appendix IX: Cosponsored and Other Activities                                            48

Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012                        53

Appendix XI: Results of External Peer Reviews                                            61

Appendix XII: Office of Inspector General Organization                                   62

Appendix XIII: Office of Inspector General Organization Chart                            63
This page intentionally blank.
                               Overview of the SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA or the Agency) under the Small Business Act, as
amended, is to maintain and strengthen the Nation’s economy by enabling the establishment and vitality
of small businesses and assisting in the economic recovery of communities after disasters. The Agency’s
2011-2016 strategic plan has three overarching goals:

     Growing businesses and creating jobs
     Building an SBA that meets needs of today’s and tomorrow’s small businesses
     Serving as the voice for small business

The SBA is organized around four key functional areas: financial assistance (e.g., loan programs),
contracting assistance, technical assistance (e.g., entrepreneurial development), and disaster assistance.
The Agency also represents small businesses through an independent advocate and an ombudsman. The
SBA’s headquarters is located in Washington, D.C. with staff in 10 regional offices, 68 district offices,
their corresponding branch offices, and 4 disaster field offices to deliver business products and services.
There are also six government contracting area offices. The SBA also maintains a vast network of
resource partners in all 50 states, the District of Columbia, Puerto Rico, American Samoa, the U.S. Virgin
Islands, and Guam.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978 (the IG Act), as amended, the Office of Inspector General
(OIG) provides independent, objective oversight to improve the integrity, accountability, and performance
of the SBA and its programs for the benefit of the American people. The OIG seeks to improve SBA
programs by identifying key issues facing the Agency, recommending corrective actions, and promoting a
high level of integrity. The Office’s efforts and accomplishments during the second half of Fiscal Year
2012 focused on the critical risks facing the SBA, including (1) risks due to limited oversight and controls
in SBA lending programs; (2) risks affecting SBA’s oversight of contracts for small and disadvantaged
businesses; and (3) risks associated with the SBA’s information security controls and other operations.

Appendix I contains information regarding audit and other reports issued by the OIG during this reporting
period. Appendix X contains summaries of investigative actions. Copies of OIG reports and other work
products are available on the OIG’s website at http://www.sba.gov/office-of-inspector-general.




                                                    [1]
                                          Management Challenges

Each year the OIG identifies the most serious management and performance challenges facing the
Agency. In accordance with the Reports Consolidation Act of 2000 and Office of Management and
Budget (OMB) Circular A-1361, the SBA reports this information in its Agency Financial Report (AFR).
The Management Challenges represent areas that the OIG considers particularly vulnerable to fraud,
waste, abuse, or mismanagement, or which otherwise pose significant risk to the Agency, its operations,
or its credibility. Each Management Challenge generally has originated from one or more OIG or
Government Accountability Office (GAO) report(s). For each Management Challenge, the OIG provides
the Agency with recommended remedial actions together with an assessment of Agency progress on each
recommended action during the preceding fiscal year. If progress occurs during the previous fiscal year,
the OIG awards a higher color score and the arrow indicator shows upward movement.

On October 21, 2011, the OIG provided the Agency with its Report on the Most Serious Management and
Performance Challenges Facing the SBA in FY 2012. The Management Challenges Report was included
in the SBA’s Agency Financial Report: Fiscal Year 2011 issued on November 15, 2011. The following
table provides a summary of the FY 2012 report on the Agency’s Most Serious Management and
Performance Challenges.
Table 1 Color Score Status at End of FY 2011

                                               Status   Status    Status       Status
    No.               Topic                    Score    Score      Score       Score      Improved2    Worsened3
                                               Green    Yellow    Orange        Red
     1    Small Business Contracting             1                   2                         1           1
     2    IT Security                                     2          2                                     1
     3    Human Capital                                   1                      1                         1
     4    Loan Guaranty Purchase                          1                                    1
     5    Lender Oversight                                4           2
     6    8(a) BD Program                                 1           2          1                         3
     7    Loan Agent Fraud                                2
          Loan Management and
     8                                                                4
          Accounting System
     9    Improper Payments                      3                    3                        3
             TOTAL                               4       11          15          2             5           6
               Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




1
  OMB Circular A-136, Financial Reporting Requirements.
2
  “Improved” refers to an action item that showed progress this year over last year’s score.
3
  “Worsened” refers to a recommended action that regressed from last year’s score.


                                                          [2]
                              Small Business Access to Capital

The SBA has a financial assistance portfolio of guaranteed and direct loans of nearly $93 billion. The
Agency’s largest lending program, the Section 7(a) Loan Guaranty program, is the SBA’s principal
vehicle for providing small businesses with access to credit that cannot be obtained elsewhere. This
program relies on numerous outside parties (e.g., borrowers, loan agents, and lenders) to complete loan
transactions, with approximately 80 percent of loans being made by lenders to whom the SBA has
delegated loan-making authority. Additionally, the SBA has centralized many loan functions and reduced
the number of staff performing these functions, placing more responsibility on, and giving greater
independence to, its lenders. The OIG continues to identify weaknesses in the SBA’s lender oversight
processes.

The SBA’s 504 Loan Program provides small businesses with long-term, fixed-rate financing for the
purchase of land, buildings, machinery, and other fixed assets. Local economic development
organizations approved by the SBA are known as Certified Development Companies (CDCs). The CDCs
package, close, and service these loans, which are funded through a mix of funds from private sector
lenders, proceeds from the sale of SBA-guaranteed debentures, and borrower equity investment.

The Microloan Program provides small ($50,000 or less), short-term loans and technical assistance to
small business concerns, as well as non-profit child-care centers through SBA-funded intermediary
lenders. These lenders are non-profit, community-based organizations with experience in lending and
providing management and technical assistance to businesses.

Through the Small Business Investment Company (SBIC) Program, the SBA licenses and makes funds
available to venture capitalists known as SBICs. The SBICs lend or otherwise invest in small businesses
using participating securities made up of contributions from SBA and private investors or funds generated
through the sale of SBA-guaranteed debentures.

More Legal Actions Result from Multi-Year Loan Fraud Investigation

A major scheme began to unravel after the arrests of 18 individuals by OIG and U.S. Secret Service
(USSS) agents in 2007. A lender’s former executive vice president and others had conspired to
fraudulently qualify loan applicants for SBA-guaranteed loans, mainly for the purchase of gas stations,
across several Midwestern states. The scheme involved at least 91 fraudulent loans totaling
approximately $85 million. Thus far, 39 individuals have been indicted or otherwise charged, and 31
have been convicted. Four defendants are international fugitives. To date, court-ordered restitution, civil
settlements, SBA recoveries of loan guaranties from the lender, and potential cost savings from the
withdrawal of loan guaranties total over $100.5 million.

During this reporting period, a Michigan-area commercial loan broker was sentenced to 61 months
incarceration, three years of supervised release, and nearly $9 million in restitution to be paid jointly with
his co-conspirators after having pled guilty to conspiracy to commit wire fraud. The broker and a
colleague previously had been charged for their involvement in a scheme to falsify equity injections and
loan disbursements on U.S. Department of Housing and Urban Development (HUD) settlement
statements involving 12 SBA-guaranteed loans. The investigation revealed that he recruited “straw
buyers” to falsely obtain SBA loans. This is a joint investigation with the USSS.




                                                     [3]
                               Small Business Access to Capital

Criminals Use Various Methods to Defraud Loan Guaranty Programs

Criminals use a wide array of techniques to fraudulently obtain—or induce others to obtain—SBA-
guaranteed loans. These techniques include submitting fraudulent documents, making fictitious asset
claims, manipulating property values, using loan proceeds contrary to the terms of the loans, and failing
to disclose debts or prior criminal records. Consequently, there is a greater chance of financial loss to the
Agency and its lenders. Some of the techniques are described below.

     A Chicago-area entrepreneur and former commercial loan officer, pled guilty to financial
      institution fraud and was sentenced to 23 months of probation and 300 hours of community
      service. He also was required to submit to a stipulation and consent order with the Federal
      Deposit Insurance Corporation (FDIC). This effectively prohibited his employment in the
      banking industry and his participation in the affairs of financial institutions for a minimum of 10
      years. The loan officer was previously indicted in connection with multiple attempts to defraud
      the SBA, a CDC, and four participating banks when he tried to sell his gas station. The
      investigation found that he directed his colleague and friend, a Chicago-area commercial loan
      broker, to prepare false corporate financial statements portraying the failing business as profitable
      in order to make money from its sale. The loan officer provided the falsified financial statements
      to the CDC and four SBA lenders when applying for SBA-guaranteed loan packages totaling
      $6.18 million. Any of these fraudulent loans could have exposed the lender and the SBA to
      increased loss potential. Because of the investigation, these loans were cancelled prior to
      disbursement. The OIG conducted this investigation jointly with the FDIC OIG.

     A Maryland investment firm and its two sibling owners were indicted for bank fraud, conspiracy
      to commit bank fraud, aiding and abetting, and criminal forfeiture. In addition, an associate pled
      guilty to bank fraud and conspiracy to commit bank fraud, and agreed to forfeit $1,300,000. The
      legal actions relate to a scheme to fraudulently obtain SBA-guaranteed business loans that
      resulted in losses of over $37 million. The investment firm specialized in securing loans for
      individuals interested in purchasing or refinancing small businesses in the Mid-Atlantic area. The
      three individuals allegedly encouraged prospective borrowers to apply for Section 7(a) business
      loans through their firm. They allegedly submitted SBA loan applications and supporting
      documentation containing fraudulent personal financial statements to loan originators and
      underwriters on their clients’ behalf, thereby falsely enhancing the creditworthiness of the
      borrowers and their businesses. This is a joint investigation with the Federal Bureau of
      Investigation (FBI).

     A former Missouri bank vice president and loan compliance officer pled guilty to making a false
      statement to the SBA, as well as aiding and abetting. She assisted others in fraudulently securing
      a $1.6 million SBA loan by preparing and providing a false affidavit to the Agency. The affidavit
      stated that the borrowers had never been reported as 30-days past due when, in fact, they had
      been past due on multiple occasions. The OIG is conducting this investigation jointly with the
      FBI.

     The owner of an Ohio tire recycling firm was indicted for conspiracy, wire fraud, bank fraud, and
      making false statements involving loan applications. A second individual was indicted for
      conspiracy. The indictment alleged that they provided false and fictitious loan application

                                                     [4]
                              Small Business Access to Capital

        documents, invoices, and additional supporting documents to an Ohio bank and the SBA to
        secure a $1,715,600 guaranteed loan for their business. This is a joint investigation with the FBI.

     An Arizona man was indicted for bank fraud, wire fraud, and making false loan and credit
      applications. The indictment charged that he falsely obtained two mortgage loans and an SBA
      loan by using his father’s identity. To get the loans approved, the man is alleged to have falsely
      represented that his father owned various properties and businesses; earned an annual salary of
      $110,000; and had large amounts of cash. He also allegedly submitted altered bank statements
      and false rental agreements with the loan applications. The total loss on the SBA loan is over
      $2.4 million. The OIG is conducting this investigation jointly with the FBI.

Banker Diverts SBA Loan Proceeds to Personal Use

The former vice president of a Missouri bank was sentenced to 41 months in prison, 5 years of supervised
release, and nearly $452,000 in restitution after previously pleading guilty to bank fraud. He was also
barred from holding any position of financial trust without permission from the U.S. Probation Officer.
The investigation disclosed that he was responsible for numerous fraudulent loan transactions involving
both SBA and non-SBA loans while employed by the bank. The vice president made loans to
unsuspecting borrowers and diverted the proceeds to his own personal accounts. He also drew on
customers’ lines of credit to make payments on his accounts, loans, and personal credit cards. In addition,
he issued cashier's checks for his personal benefit without reimbursing the bank, and originated fraudulent
letters of credit that the institution had to guarantee. The result was a loss of nearly $452,000 to the bank.
This is a joint investigation with the FDIC OIG and the FBI.

Major Prison Sentence Results from False Identities Scheme

A loan broker was sentenced to 65 months in prison, 36 months of supervised release, and restitution of
over $1.1 million after previously pleading guilty to conspiracy to commit bank fraud, possession of
unauthorized access devices, and aggravated identity theft. The investigation revealed that an organized
group of Korean nationals obtained credit cards and loans from multiple lending institutions by using
false identities, documents, and business names. Many of the loans were SBA-guaranteed. The broker,
one of the group’s leaders, handled 33 loans totaling approximately $1.8 million. Loan officers at other
banks were also involved in the scheme. Current losses on the loans total approximately $1.3 million.

In addition, another member of the group pled guilty to making false statements and concealing material
facts. This individual obtained a $100,000 loan from one bank and a $50,000 SBA-guaranteed loan from
a second bank by using another person’s identity and another business’ name. This is a joint investigation
with the Internal Revenue Service (IRS) Criminal Investigation (CI); the Englewood, New Jersey, Police
Department; and the Bergen County Prosecutors’ Office.

False Equity Injection Places Business Loan Programs at Risk

A borrower’s own financial stake in a business is known as equity (or capital) injection. An individual is
less likely to default on a loan if he or she personally has something at risk in the business. When lenders
require an injection of such money into projects financed by guaranteed loans, some borrowers try to


                                                     [5]
                            Small Business Access to Capital

avoid this obligation by falsifying the amount or source of these injections, as shown by the following
examples.

    The owner of a Georgia learning academy was sentenced to 30 months in prison, 36 months of
     supervised release, and restitution of nearly $1.7 million after pleading guilty to conspiracy to
     defraud the United States. She orchestrated the straw sale of her business by using a Section 504
     loan package worth $3,175,000 and an unindicted co-conspirator’s assistance. The owner caused
     the co-conspirator to falsely state that the sale would be supported by a $296,200 equity injection
     from the borrower when, in fact, no equity would be provided by the borrower. Moreover, she
     never intended to relinquish possession of the business. The OIG conducted this investigation
     jointly with the FBI.

    A Texas man pled guilty to making false statements in connection with his submission of a
     contract to purchase a motel for $2,350,000. He then conspired with others to create another
     company as a straw seller in order to artificially inflate the sales price to $2,950,000. The man
     submitted fraudulent documents to the SBA lender and paid the straw seller $400,000 of the
     required cash injection outside of closing, of which $308,000 was secretly returned to him prior
     to closing. This allowed him to apply some of the same funds toward the remaining balance of
     the cash injection, thereby reducing the out-of-pocket funds he had to pay to purchase the
     property. At closing, the straw seller received approximately $196,000 that was identified as
     seller’s proceeds. The $196,000 was then covertly funneled to a company owned by the subject,
     who was the buyer in the transaction. This is a joint investigation with the FBI.

    A Texas loan broker was sentenced to 36 months in prison, 36 months supervised release, and
     restitution of nearly $8.6 million for her role in a conspiracy to commit bank fraud. She worked
     directly with 200 borrowers by instructing them on how to prepare their loan paperwork and by
     obtaining the necessary financial records from them. On 45 loan packages, she represented to
     various financial institutions that the borrowers had made their required cash injections when they
     had not. She also instructed the borrowers to write checks to her company in the amounts of their
     required equity injections. The broker then photocopied and returned the checks to the borrowers
     and presented the copies at the closings as having been paid. Both she and the borrowers knew
     the checks would not be cashed, and in most cases, the borrowers did not have the funds in their
     accounts. For each loan closed, the broker would receive one to three percent of the loan value.
     Thus far, financial institutions and the SBA have charged off approximately $8 million, and an
     additional $6.762 million is in liquidation. The OIG conducted this investigation jointly with the
     FBI.

High-Dollar Early-Defaulted Loans Require an Increased Scrutiny and Improved Quality Control

The OIG Audit Division issued a series of reports related to the audit of twenty-five purchased 7(a)
Recovery Act loans. In an advisory memorandum, the OIG noted that overall, material deficiencies were
identified in 14 of the 25 early-defaulted loans selected for audit. These deficiencies resulted in
questioned costs or recoverable guaranty payments totaling approximately $10.7 million. The audit found
that the National Guaranty Purchase Center (NGPC) either made a purchase error or did not identify the
deficiencies during its guaranty purchase reviews on six of the nine loans it reviewed, resulting in
improper payments totaling approximately $3.3 million. Due to the high number of deficiencies

                                                  [6]
                              Small Business Access to Capital

identified and the resulting improper payments, the OIG recommended that the SBA establish a
specialized early-default purchase review unit at the NGPC. The audit also determined that the NGPC’s
quality control process did not evaluate lender compliance with SBA eligibility and use of loan proceeds
requirements. The OIG provided a recommendation to address this gap.




                                                  [7]
                                      Disaster Loan Program

The Disaster Loan program plays a vital role in the aftermath of disasters by providing long-term, low-
interest loans to affected homeowners, renters, businesses of all sizes, and non-profit organizations. The
SBA offers home and personal property loans, business physical disaster loans, and economic injury
disaster loans. The Disaster Loan program is particularly vulnerable to fraud and unnecessary losses
because loan transactions are expedited in order to provide quick relief to disaster victims. During this
semiannual period, the OIG’ s audits of the disaster assistance program focused on loan liquidation
activities and staffing and mobilization strategies.

Gulf Coast Hurricane Aftermath Continues to Result in Legal Actions

The 2005 Gulf Coast hurricanes—Katrina, Wilma, and Rita—resulted in a major loss of life and property.
As part of a massive aid effort from Federal agencies, SBA approved billions of dollars in disaster
assistance loans. Unfortunately, the need to disburse such loans quickly may have created opportunities
for dishonest applicants to commit fraud.

Accordingly, the OIG, in conjunction with other law enforcement organizations, formed what is now
known as the National Center for Disaster Fraud (NCDF). From FY 2006 through the first half of FY
2012, the OIG, in conjunction with the NCDF, has thus far produced 85 arrests, 95 indictments, and 90
convictions related to wrongdoing in the SBA’s Disaster Loan program for these three hurricanes.
Moreover, OIG investigations in the disaster area to date have resulted in over $5.6 million in court-
ordered restitution and related recoveries. The OIG has also assisted the SBA in denying almost $4.5
million in loans to potentially fraudulent borrowers.

For example, during this reporting period, the former pastor of a New Orleans church pled guilty to mail
fraud and theft of government funds. He had applied for an SBA disaster loan on behalf of his church,
which had sustained severe damage from Hurricane Katrina. The initial loan amount of $500,000 was for
the replacement of equipment and the rebuilding of the church. The pastor later requested a loan increase
due to rising construction costs. The SBA approved a $463,900 loan increase, bringing the total loan
amount to $963,900. The investigation revealed that the pastor used the funds to purchase two luxury
vehicles, two pieces of real estate, certificates of deposit, designer clothing, fine jewelry, and other items
for his personal use.

Elaborate Fraud Schemes Persist after Hurricanes Ike and Gustav

Hurricanes Ike and Gustav in 2008 were two of the costliest natural disasters in U.S. history. As with
other catastrophes, some individuals devised elaborate schemes to illegally profit from the crisis. For
example, a Texas assistant medical examiner was indicted for making false statements to obtain property
or credit, and was suspended from her professional duties. She allegedly made material false statements
in a mortgage loan application, which was approved for $417,000 to purchase rental property from her
husband.




                                                     [8]
                                     Disaster Loan Program

In addition, her husband, a real estate broker and Houston area bank director, pled guilty to conspiracy
and fraud in connection to a major disaster. The couple had been approved for two SBA disaster loans
totaling $999,700 to repair more than 40 rental properties damaged by Hurricane Ike. The husband was
involved in a fraudulent invoice scheme with employees, relatives, and contractors in which he submitted
inflated and false invoices for repairs to his residence and rental properties. He also claimed that
Hurricane Ike had damaged a rental property, although an intentional fire had actually damaged the
property. His brother and his property manager, both of whom pled guilty to conspiracy, colluded with
him and others to submit fictitious receipts to the SBA totaling over $750,000. This case resulted from a
referral by the SBA Processing and Disbursement Center. The OIG is conducting this investigation
jointly with the Department of Homeland Security (DHS) OIG.




                                                   [9]
      Small Business Development, Contracting, Education and Training

The SBA works to maximize opportunities for small, woman, or minority-owned and other disadvantaged
businesses to obtain federal contract awards through its government contracting programs. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting Program and the Small Disadvantaged Business (SDB) Certification Program.
The SBA also negotiates with other federal agencies to establish procurement goals for contracting with
small, disadvantaged, women-owned, service-disabled veteran-owned, and HUBZone businesses. The
current government-wide goal is for small businesses to receive 23 percent of the total value of prime
contracts awarded each fiscal year.

To help small disadvantaged businesses gain access to federal and private procurement markets, the
SBA’s Section 8(a) Business Development Program offers a broad range of business development
support, such as mentoring, procurement assistance, business counseling, training, financial assistance,
surety bonding, and other management and technical assistance. The SBA also provides assistance to
existing and prospective small businesses through a variety of counseling and training services offered by
partner organizations. Among these partners are Small Business Development Centers (SBDCs), the
Service Corps of Retired Executives (SCORE), and Women’s Business Centers (WBCs). Most of these
are grant programs that require effective and efficient management, outreach, and service delivery.

Major Bribery Case Involves Over $2 Billion in Government Contracts

A multi-agency investigation has thus far identified seven individuals in a scheme allegedly involving
more than $20 million in bribes and kickback payments, the use of a $1.3 billion Alaska Native
Corporation (ANC) sole source contract to pay for the bribes, and the planned steering of a $780 million
government contract to a favored Section 8(a) program participant. Four of the individuals have pled
guilty to bribery, conspiracy, and money laundering. These include one government official, one
executive of an 8(a) contractor, an employee of the ANC contractor, and the president of an 8(a)
contractor. Three more individuals (including one government official) have been charged with various
crimes involving conspiracy and money laundering.

One of the officials, a former U.S. Army Corps of Engineers program manager, not only pled guilty but
also agreed to the forfeiture of over $1,150,000 in U.S. currency and other previously seized monies and
goods. In addition, a manager at the ANC agreed to forfeit over $689,000. Likewise, the president of the
8(a) technology firm not only pled guilty but also agreed to the forfeiture of $246,000 in U.S. currency
and real property in Maryland. This is a joint investigation with the FBI, the Internal Revenue Service
Criminal Investigations (IRS CI), the U.S. Army Criminal Investigation Division (CID), and the Defense
Criminal Investigative Service (DCIS). The investigation is ongoing.

Investigation Uncovers More Federal Contract Fraud

In a matter related to the above bribery case, the executive vice president of an information technology
firm pled guilty to conspiracy to commit wire fraud. The investigation revealed that he conspired with the
executive vice president of a second technology firm, employees, and representatives of his own firm, and
others to defraud the U.S. Government by submitting false information to procure and set prices on
federal contracts.




                                                  [10]
        Small Business Development, Contracting, Education and Training

In addition, the executive vice president of the second firm was indicted for conspiracy, making false
statements, mail fraud, and wire fraud. According to the investigation, he allegedly conspired with
employees and representatives of his company and others to defraud the U.S. Government by submitting
false information to the SBA for the purposes of (1) securing a federal contract in which a competitor
protested his firm’s Service-Disabled Veteran-Owned (SDVO) self-certification and (2) obtaining
HUBZone status. He also allegedly misled other federal agencies in an attempt to procure and set prices
on federal contracts. This is a joint investigation with the FBI, IRS CI, U.S. Army CID, DCIS, U.S.
Department of Labor OIG, General Services Administration (GSA) OIG, and Department of Veterans
Affairs (VA) OIG.

Firms Seek Contracting Preferences by Falsifying Eligibility

To gain preferences in obtaining federal contracts, some businesses misrepresent their eligibility for the
SDVO Small Business Concern, HUBZone, Section 8(a) Business Development, and ANC programs.
Investigations by the OIG and other federal organizations have identified schemes in which companies
owned or controlled by non-disadvantaged persons falsely claim to be disadvantaged firms or use actual
disadvantaged firms as fronts. The following cases demonstrate the nature of the problem.

        The president of a Georgia business was indicted for wire fraud and major fraud. The indictment
         alleges that he fraudulently used the status of a legitimate service-disabled veteran to obtain
         government contracts set aside for SDVO small businesses. He allegedly established his own
         business as an SDVO small business owned by the veteran, then created a joint venture between
         the veteran-owned business and his own in order to obtain SDVO small business set-aside
         contracts. The joint venture received two contracts totaling over $1 million from the VA before
         the SDVO small business status of the joint venture was challenged. The SBA ruled that neither
         the joint venture nor president’s business qualified for the program, primarily because of the
         veteran’s lack of participation in the business. Despite this ruling, the president continued to
         operate his firm as an SDVO small business. He received three additional contracts totaling
         approximately $1.7 million after allegedly forging the veteran’s signature on contracts,
         correspondence and checks, and using other means to give the false appearance that the veteran
         managed this business. This is a joint investigation with the VA OIG, the U.S. Department of
         Agriculture (USDA) OIG, the U.S. Army CID, and the DHS OIG.

        Two Missouri men pled guilty to criminal conspiracy after an investigation revealed a
         government contracting fraud scheme and the illegal payment of gratuities to a federal official. In
         addition, the official pled guilty to acceptance of gratuities to influence decisions in an official
         capacity. The first man was the owner of a contracting firm, and the second man was a silent
         partner in the contracting firm and the owner of a construction company. Both admitted to setting
         up a “figurehead” service-disabled veteran as the purported president and operator of the
         contracting firm in order to obtain federal contracts. From 2007 until 2010, the contracting firm
         misrepresented itself as a qualified SDVO small business and obtained approximately $3.4
         million in contracts from the VA. The VA contracts were then funneled to the second man’s
         construction company to perform the work. The contracting firm owner paid gratuities to the




                                                    [11]
       Small Business Development, Contracting, Education and Training

        official, who directed set-aside and sole source contracts to the contracting firm. The owner of
        the construction company agreed to forfeit nearly $1.6 million and a 2011 Jaguar luxury vehicle
        as part of his plea agreement. The OIG is conducting this investigation jointly with the GSA OIG
        and the VA OIG.

       Two Florida men were convicted of conspiracy and wire fraud. The investigation disclosed that
        the men created a company for obtaining a $100 million small business set-aside language
        instruction contract with the Department of Defense (DoD). They used a nominee owner to
        create the appearance that this company was not affiliated with another business that they
        controlled. The men submitted false and misleading information about the two companies’
        relationship after the affiliation was challenged during a size protest submitted to the SBA Office
        of Government Contracting. This is a joint investigation with the DCIS.

       The president of an Idaho construction company pled guilty to wire fraud on behalf of the firm.
        The investigation revealed that the company had submitted a HUBZone application falsely stating
        that its principal place of business was in a HUBZone and that it had two employees who resided
        in a HUBZone. Moreover, the company was self-certified as an SDVO small business, but was
        actually controlled by its vice president, who was not a service-disabled veteran. It has received
        over $4 million in GSA and Department of the Interior (DOI) contracts.

        In a related matter, the president of a second Idaho construction company pled guilty on behalf of
        the firm to wire fraud in the HUBZone program and to making false statements in the GSA’s
        Surplus Property Program, through which 8(a) companies can obtain goods. The investigation
        found that the company submitted a HUBZone application falsely stating that its principal place
        of business was in a HUBZone and that two employees resided in a HUBZone. The firm had
        obtained over $1.4 million in contracts. In addition, the firm, as an 8(a) company, obtained
        approximately $1.5 million in property for about $119,000 under the GSA’s Surplus Property
        Program. It immediately sold or transferred that property to a non-8(a) entity. The OIG is
        continuing this investigation jointly with the IRS CI, VA OIG, GSA OIG, USDA OIG, DOI OIG,
        DCIS, U.S. Army CID, and Air Force Office of Special Investigations.

Couple Sentenced for Major Veterans Affairs Contracting Scheme

The former associate director of a Department of VA Consolidated Mail Outpatient Pharmacy (CMOP) in
Illinois, his wife, and their company were sentenced for conspiring to defraud the VA and the SBA. He
was sentenced to 60 months in prison for conspiracy and wire fraud, and his wife was sentenced to 24
months of probation for conspiracy. The couple and their company were also sentenced to pay $400,000
in restitution jointly and severally.

The associate director and his wife had previously admitted to a scheme to fraudulently allow their
company to provide temporary pharmacists to the CMOP. The couple had created their company
specifically for that purpose. The firm later sought SBA certification as a woman-owned, minority-




                                                   [12]
      Small Business Development, Contracting, Education and Training

owned small disadvantaged business and 8(a) program participant. The couple agreed to allow another
company to fraudulently masquerade as their company and thus qualify for contracts set aside for SBA
program participants. The associate director claimed that his company was managed solely by his wife in
order to avoid conflict of interest laws governing federal employees. However, he and others secretly
agreed that the billing rates charged to the VA for certain pharmacists provided by his company should be
increased. Between 2000 and 2007, the couple and other unindicted co-conspirators used the couple’s
firm to bill the VA for more than $8 million in services. Participants with the OIG in this joint
investigation were the U.S. Department of Justice Antitrust Division, VA OIG, DCIS, and USSS.

SBA’s Accounting of Fiscal Year 2011 Drug Control Funds and Performance Summary Report

The Office of National Drug Control Policy (ONDCP) Circular, Drug Control Accounting, requires
agencies to annually provide a detailed accounting of all funds expended on National Drug Control
Program activities and the results associated with those activities. However, when drug-related
obligations are less than $50 million and a detailed accounting would constitute an unreasonable burden,
agencies are permitted to submit an alternative report, as long as it is accompanied by agency and OIG
statements that full compliance with the circular would constitute an unreasonable burden. Because
SBA’s Fiscal Year 2011 drug-related obligations were less than $50 million, it submitted an alternative
report for the year ended September 30, 2011. An OIG review of the alternative report found nothing to
indicate that it was not presented, in all material respects, in conformity with the ONDCP Circular, or that
management’s assertions were not fairly stated, in all material respects, based on the criteria set forth in
the ONDCP Circular.

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended section 21(a)(7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restricts the Agency’s use of such information. The provision also requires the
Agency to issue regulations regarding disclosures of such information for use in conducting financial
audits or SBDC client surveys. In 2009, the Agency represented to the OIG that it would issue
regulations as required by the statute, and later prepared proposed regulations. However, the Agency has
yet to issue these regulations.

In addition, paragraph 21(a)(7)(C)(iii) of the Small Business Act states that, until the issuance of such
regulations, any SBDC client survey and the use of such information shall be approved by the Inspector
General, who shall include such approval in the OIG’s Semiannual Report to Congress. According to a
report from the Agency, the SBA did not survey any SBDC clients during the first half of FY 2012.




                                                   [13]
                                       Agency Management

Agency management includes activities of the Offices of the Chief Financial Officer (CFO), the Chief
Information Officer (CIO), and Management and Administration. These activities encompass financial
reporting and performance management, human resources, procurements and grants, space and facilities,
and maintenance of the SBA’s information systems and related security controls.

SBA Employee Manipulated Data for Financial Gain

A former SBA lender relations officer was sentenced in Illinois to 33 months in prison, three years
supervised release, and restitution of $400,000. He previously pled guilty to wire fraud based on entries
he made into SBA databases, which traveled electronically across state lines and affected interstate
commerce. The man was partly responsible for resolving issues related to the charge-off of SBA business
and disaster loans that were secured by real estate. His duties included determining the properties’
current market value, securing the loans, determining if the assets could be recovered from SBA loan
debtors, and selling various delinquent loans to private equity investors. He had recommended selling 25
delinquent loans for below their value to his stepbrother and son-in-law without disclosing to the SBA the
familial relationships or the true value of each loan. The OIG conducted this investigation jointly with the
FBI.

IPERA Reporting

The Improper Payments Information Act of 2002 (IPIA) requires agencies to review and identify those
programs susceptible to significant improper payments; report on the amount and causes of improper
payments; and develop plans for reducing improper payments. Provisions of The Improper Payments
Elimination and Recovery Act of 2010 (IPERA) amended the IPIA by providing alternative improper
payments measures, expanding the requirements for corrective action plans, and increasing the scope of
recapture audits for all payments and program activities in excess of $1 million. The IPERA guidance
further requires that each OIG annually review its agency’s improper payments reporting within 120 days
of issuing its Agency Financial Report (AFR).

The SBA’s four major credit programs are subject to improper payments reporting as required by the
former Section 57 of OMB Circular A-11. In addition, the SBA identified contracting and disbursements
as a risk-susceptible activity under the provisions of IPERA for FY 2011. Prior OIG audits have
identified high percentages of disaster and business loans that were made to borrowers who were
ineligible, lacked repayment ability, or did not provide the required support for disbursement. Those
audits further determined that the improper payments rates reported for these programs were significantly
understated. The magnitude of those findings has resulted in the OIG identifying the improper payments
area as an SBA Management Challenge.

The OIG issued a report stating that the SBA was generally compliant in meeting the minimal reporting
requirements for IPERA in its FY 2011 Agency Financial Report. However, our qualitative review of the
Agency’s efforts to prevent and reduce improper payments demonstrated that immediate management
attention is needed in four of the six programs or activities to improve the:

     accuracy and completeness of reporting:
     sufficiency of improper payments recapturing activities: and
     quality of corrective action plans.

                                                   [14]
                                     Agency Management

In the course of conducting this review, the OIG issued an advisory memorandum to advise the SBA that
they had not complied with IPERA and IPIA requirements as they pertain to the SBA’s planning,
execution, and reporting of the improper payments for its contracting activities during Fiscal Year 2011.
This reporting requirement was added with the enactment of the 2010 IPERA, and subsequent
implementation guidance from the Office of Management and Budget in April 2011. Specifically, the
OIG found that the:

     personnel responsible for developing the test plan and performing the improper payments review
      did not have training in contracting practices;
     test plan was inadequate to detect improper payments;
     IPERA review did not capture significant payment errors;
     publishing of an 89 percent improper payment rate was incomplete;
     improper payment rate was not reported in accordance with the OMB guidance; and
     SBA management did not develop or publish a corrective action plan and a payment recapture
      audit plan.

While conducting this review, the OIG also found that the SBA had not complied with IPERA and IPIA
requirements as they pertain to SBA’s 7(a) and 504 loan programs. Specifically, the OIG found that the:

     test procedures to assess loan approvals in the 7(a) and 504 loan programs were limited and did
      not result in accurate improper payment rates for the programs;
     corrective action plans for reducing improper payments in the 7(a) and 504 loan approval
      programs were based on incomplete testing processes;
     reported improper payment rate of 1.73% and $40.7 million for the 7(a) guaranty purchases
      program was significantly understated;
     test procedures for the 7(a) guaranty purchases program were incomplete and did not require
      performing detailed analysis of creditworthiness (including repayment ability) on early defaulted
      loans; and
     corrective action plan for reducing improper payments in the 7(a) guaranty purchases program
      was incomplete and based on an understated estimate of improper payments.

Additionally, the OIG also found that the SBA had not complied with IPERA and IPIA requirements as
they pertain to SBA’s disaster loan program. Specifically, the OIG determined that the:

     reported improper payment rate of 28.4 percent exceeded the target rate of 20 percent;
     reported rate significantly exceeded 10 percent, the level necessary to be in compliance with
      IPERA requirements;
     corrective action plans for reducing improper payments in the disaster loan program did not
      address all root causes; and
     SBA did not provide justification for not implementing a payment recapture audit program.

The OIG found that the SBA failed to include a corrective action plan, a payment recapture plan, and an
update to the Improper Payment Reduction Outlook Table in the disbursements and contracting reporting
segment of its FY 2011 AFR. Furthermore, the OIG found significant internal control weaknesses in the




                                                  [15]
                                       Agency Management

(1) accuracy and completeness of reported information; and (2) use and deployment of corrective action
plans to ensure resources are focused on the appropriate root causes of improper payments.

Million Dollar State Trade and Export Promotion Grant Awarded to Ineligible Recipient

During the OIG’s ongoing Review of the Small Business Administration’s (SBA’s) State Trade and Export
Promotion (STEP) Grant Program, the OIG issued an Advisory Memorandum to enable SBA’s Office of
International Trade (OIT) personnel to take immediate corrective action. The OIG’s review determined
that the OIT awarded a STEP program grant, valued at $1,022,781, to the Commonwealth of the Northern
Mariana Islands, even though the Commonwealth was not identified in the authorizing statue as eligible
to receive the grant. This resulted in eligible grant recipients receiving a lesser portion of the available
$30 million for the FY 2011 STEP grant program. The OIG recommended that the SBA immediately
terminate the grant before any grant money was disbursed. Further, the OIG recommended that fund
disbursements be withheld, and all previously disbursed funds be recovered. Additionally, the OIG
recommended that the SBA redistribute the funds to other qualified STEP grant recipients or return the
funds to the U.S. Department of the Treasury, and take precautions to ensure that an ineligible recipient
does not receive a STEP grant in subsequent years. The SBA terminated the grant and is the process of
responding to the other OIG recommendations.

SBA’s Lender Loan Reporting Process has Systemic Issues and Data Control Weaknesses

The OIG issued a report regarding the audit of the SBA’s controls and oversight over the development,
security, and operation of certain information technology systems and processes performed by Colson
Services Corporation (Colson). Colson performed certain functions for SBA 7(a) and 504 loan programs
including processing certain automated transactions and developing new information technology
systems.

The OIG found that the SBA did not (1) adequately address systemic data control weaknesses; (2) provide
adequate oversight of the First Mortgage Loan Pooling System development; (3) ensure that Colson’s
operation of SBA systems met federal security requirements; and (4) adequately enforce collection of
secondary market late penalty fees. These weaknesses resulted in an overstatement of unpaid loan
balances and loan error volume reaching approximately 44,000 errors. Some SBA systems were also
being operated without adequate assurance that they met SBA quality standards, and Federal security
requirements. The OIG made 11 recommendations, the most significant being to: (1) correct loan
balances contributing to the subsidy overstatement; (2) collect outstanding late penalty fees; (3) ensure
that system development projects adhere to SBA quality standards for systems development projects; and
(4) ensure that systems are authorized to operate prior to being put into production.

Audit of SBA’s Fiscal Year 2011 Financial Statements

The OIG contracted with KPMG LLP, an Independent Public Accountant (IPA), to conduct the annual
independent audit of SBA’s financial statements and accompanying reports on internal control and
compliance with laws and regulations for the fiscal year ending September 30, 2011. The audit found that
SBA’s consolidated financial statements presented fairly, in all material respects (1) the financial position




                                                    [16]
                                     Agency Management

of SBA as of and for the years ending September 30, 2011 and 2010, and (2) SBA’s net costs, changes in
net position, budgetary resources, and combined statements of budgetary resources for the years then
ended. With respect to internal control, the independent auditors continued to report a significant
deficiency related to Information Technology security controls. In addition, the IPA’s test for compliance
with certain laws, regulations, contracts, and grant agreements determined that the Agency did not fully
comply with the Debt Collection Improvement Act of 1996 because it did not consistently follow
Treasury guidelines for referring delinquent debts for collection. As part of its audit, the IPA issued a
Management Letter addressing internal control and other operational matters that were noted during the
audit. Additionally, the IPA conducted a related audit to address inadequate controls over the 504-
loan pool transaction entry process. In a separate Management Letter, the IPA determined that the Office
of Financial Assistance (OFA) did not have documented controls to ensure that the Fiscal Transfer
Agent’s (Colson) monthly upload of transaction details for each 504 loan pool into the OFA’s Electronic
Transaction (E-TRAN) System is correct and reliable.

Weaknesses Identified During Federal Information Security Management Act Review

The Federal Information Security Management Act (FISMA) requires OIGs to perform annual
independent evaluations of their agency's information security program and practices to determine their
effectiveness. The OIG’s FY 2011 review found that significant improvements were needed in critical
computer security areas in order for SBA to fully meet the requirements set forth in FISMA and OMB
Circular A-130, Management of Federal Information Resources. The OIG made a number of
recommendations to address the deficiencies identified during the review.

SBA Gift Authority

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. The SBA did
not have any cash gifts to report this period. However, in compliance with the Small Business Act, the
OIG conducted an audit of two cash gifts totaling $10,000 that were recorded in the Business Assistance
Trust Fund (BAT Fund) during April 2011.

The OIG determined that the SBA obtained proper approvals to solicit and accept gifts to use for the
payment of travel and per diem costs for the SBA’s Start-up America events in 2011. The SBA recorded
the cash donations in the BAT Fund and timely made the funds available to the Office of the
Administrator (OA) for expenditure. In addition, the Massachusetts District Office used its prior year
BAT Funds to pay for a Jobs Act “Listening Tour” event.

The OIG noted, however, that the OA recorded the wrong accounting code in the SBA’s Administrative
and Accounting System. Consequently, guest speakers and participants’ travel moreover, per diem
expenses for the Start-Up America events, totaling $5,680.51, were reimbursed out of the SBA’s salaries
and expenses appropriation instead of the BAT Fund. While $5,680.81 of the original $10,000 gift
should have been used to pay these travel expenses, the OIG noted that the OA did not follow-up with
Business Forward regarding the disposition of the unused $4,319.49.The OIG also found that the SBA did
not have permanent procedures in place on gift acceptance since 2007, and recommended that the SBA
issue such procedures.

                                                  [17]
                                      Agency Management

Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with co-sponsorships and fee-based
Administration-sponsored events. The SBA’s Office of Strategic Alliances provided information to the
OIG related to co-sponsorships, including the names, dates, and locations of the cosponsored events and
the names of the cosponsors. This information was not verified by the OIG. As shown in Appendix IX,
between October 1, 2011 and March 31, 2012, the Administrator—through her approved designees—
fully executed 49 cosponsorship agreements.




                                                  [18]
                                Other Significant OIG Activities

Character Screening Lessens Potential Program Fraud

Participants in SBA programs that encompass business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guarantees, SBICs, and CDCs must meet Agency character standards. To help
accomplish this, the OIG’s Office of Security Operations utilizes name checks and, where appropriate,
fingerprint checks to determine criminal background information. During this reporting period, the OIG
processed 2,411 external name check requests for these programs.

In addition, based on data from the OIG’s on-line connection with the FBI, the OIG refers applicants who
appear ineligible because of character issues to program officials for adjudication. As a result of OIG
referrals during this reporting period, SBA business loan program managers declined 21 applications
totaling over $10.5 million and disaster loan program officials declined 17 applications totaling over $1.5
million. Moreover, the Section 8(a) program declined 11 applications for admission.

During this reporting period, the OIG also initiated 146 background investigations and issued 22 security
clearances for SBA employees and contractors. Likewise, the OIG also adjudicated 85 background
investigative reports and coordinated with SBA’s Office of Disaster Assistance to adjudicate
137 derogatory background investigation reports. Finally, the OIG processed 2,072 internal name check
requests for SBA activities such as success stories, “Small Business Person of the Year” nominees, and
disaster assistance new hires.

OIG Promotes Debarment and Administrative Enforcement Actions

As a complement to the OIG’s criminal and civil fraud investigations, the OIG continually promotes the
use of suspensions, debarments and other administrative enforcement actions as a means to protect
taxpayer funds from those who have engaged in fraud or otherwise exhibited a lack of business integrity.
The OIG regularly identifies individuals and organizations for debarment and other enforcement actions
and submits detailed recommendations with supporting evidence to the responsible SBA officials.

During this reporting period, the OIG sent 19 suspension and debarment referrals to SBA. (The
Statistical Highlights section of this Report contains additional suspension and debarment statistics.)
Most OIG administrative referrals involve the abuse of SBA’s loan and preferential contracting programs.
Where appropriate, the OIG recommends that the SBA suspend the subject of an ongoing OIG
investigation given program risk presented by the continued participation of those individuals and
entities.

Examples of administrative actions based upon referrals during the reporting period include:

     The SBA debarred a loan agent for three years who: (1) counseled prospective borrowers to
      inflate their working capital request to cover the loan agent’s fee; (2) instructed borrowers not to
      disclose the loan agent’s fee where required on an SBA form; and (3) charged borrowers an
      impermissible contingency fee for working on an SBA loan. An associate of the loan agent was
      also debarred for involvement in charging impermissible contingency fees and not disclosing loan
      agent fees to SBA.




                                                   [19]
                              Other Significant OIG Activities

     The SBA OIG referred a loan broker and several affiliates for suspension pending resolution of
      criminal charges. The broker and affiliates were involved in an alleged scheme to secure SBA
      guaranteed loans with falsified information. The scheme has resulted in losses over $37 million.

     The OIG referred a contractor who submitted what appear to be falsified documents to SBA for a
      suspension. The contractor submitted the apparently falsified documents in support of an
      application for HUBZone certification.

     In response to an OIG referral, the SBA received Department of Justice authorization and filed a
      Program Fraud Civil Remedies Act complaint against the owner of a company that failed to
      disclose significant debts when applying for an SBA Express Loan. The SBA is suing the owner
      and another party for twice the amount of the claim SBA was called upon to pay and other civil
      penalties, as permitted by the Act.

Additionally, during the reporting period, the OIG continued its work to encourage the SBA to implement
a more robust debarment and suspension program, and to implement a program to prevent dishonest loan
agents from participating in SBA’s business loan programs. Although SBA has made progress with
respect to its enforcement policies, the Agency needs to continue strengthening its enforcement programs.

The OIG also provided training to enhance awareness of criminal, civil, and administrative remedies
among staff at the NGPC. The NGPC reviews loan files when SBA is called upon to honor its guaranty
in the 7(a) Loan Program. Center personnel are uniquely situated to observe and identify suspicious
documentation or other activities during their loan reviews.

Finally, the OIG has continued its active participation in the Council of Inspectors General on Integrity
and Efficiency (CIGIE) Working Group on Suspensions and Debarments. During the reporting period,
the OIG provided assistance to CIGIE in developing a training program designed to provide suspension
and debarment instruction to OIG personnel.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls
to Reduce Fraud, Waste, Abuse and Inefficiencies

As part of the OIG’s proactive efforts to promote accountability and integrity and reduce inefficiencies in
SBA programs and operations, the OIG reviews changes that SBA is proposing to make to its program
directives such as regulations, internal operating procedures, Agency policy notices, and SBA forms that
are completed by the public. Frequently, the OIG identifies material weaknesses in these proposals and
works with the Agency to implement recommended revisions to promote controls that are more effective
and deter waste, fraud or abuse. During the reporting period, the OIG reviewed 87 proposed revisions of
program management or Agency reorganization documents and submitted comments on 48 of these
initiatives.

Many of the initiatives that the OIG commented on were issued in response to the various program
changes mandated by the Small Business Jobs Act of 2010, or programs that the SBA has recently
implemented. For example, in response to OIG comments, the Agency implemented revisions to
strengthen controls, and reduce the potential for waste, fraud, abuse, and inefficiencies in the 504 debt
refinancing program, the Community Advantage Program, and in SBA’s export loan guaranty programs.

                                                   [20]
                              Other Significant OIG Activities

The OIG also pointed out concerns with SBA’s proposed revisions of various standards to measure small
businesses and a proposal to expand mentor-protégé relationships in small business preferential
contracting programs. Additionally, the OIG recommended revisions to accomplish controls that are
more robust in connection with background checks performed on contractors and information technology
security.

OIG Conducts Fraud Awareness Briefings

During this reporting period, the OIG conducted 12 fraud awareness presentations for over 400 attendees,
including SBA and other government employees, lending officials, and law enforcement representatives.
Topics included types of fraud; fraud indicators and trends; and how to report suspicious activity that may
be fraudulent.

OIG Hotline

The hotline is staffed by OIG employees who process allegations of waste, fraud, abuse, or serious
mismanagement in the SBA or its programs from employees, contractors, and the public. The hotline
also coordinates reviews with internal audit and investigative units and with SBA program offices.

During this reporting period, the hotline received and processed 327 complaints in the following manners:

                54% through the OIG’s online link,
                33% by email,
                10% in a letter or writing,
                3% via telephone, and
                less than 1% in person.

Each complaint is logged into a database and tracked. Of the hotline complaints received:

       151 were referred to SBA program offices or other entities:
       85 were referred to the OIG’s Investigations Division;
       65 were reviewed by the hotline staff;
       16 were referred to the OIG Counsel or Auditing Division; and
       39 needed no action.




                                                   [21]
       Highlights: 6-Month Productivity Statistics: October 1, 2011-March 31, 2012


Summary of Office-Wide Dollar Accomplishments                                                                                                   Totals

A.    Potential Investigative Recoveries and Fines ..................................................................... $16,257,233*
B.    Asset Forfeitures Attributed to OIG Investigations ................................................................ $2,211,537
C.    Loans/Contracts Not Approved or Canceled as Result of Investigations.................................... $32,844
D.    Loans Not Made as a Result of Name Checks ..................................................................... $12,041,457
E.    Disallowed Costs Agreed to by Management ........................................................................ $3,736,456
F.    Recommendations that Funds Be Put to Better
      Use Agreed to by Management ........................................................................................................... $0

      Total ..................................................................................................................................... $34,279,527

Efficiency and Effectiveness Activities Related to Audits and Other Reports

A. Reports Issued ...................................................................................................................................... 12
B. Recommendations Issued ..................................................................................................................... 95
C. Dollar Value of Costs Questioned .......................................................................................... $1,037,969
D. Dollar Value of Recommendations that Funds
   Be Put to Better Use ............................................................................................................... $7,700,000
E. Collections as a Result of Questioned Costs .......................................................................... $4,228,298

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period ................................................................................................................ 68
B. Disallowed Costs Agreed to by Management ........................................................................ $3,736,456
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ................................................................................................................... $0
D. Recommendations without a Management Decision at End of Reporting Period ............................... 54

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation, Regulations, Standard Operating Procedures, and Other Issuances
   Reviewed .............................................................................................................................................. 87




*     May include actions from earlier reporting periods.




                                                                           [22]
       Highlights: 6-Month Productivity Statistics: October 1, 2011-March 31, 2012


Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases ................................................................................................................ 26
B.   Convictions from OIG Cases.............................................................................................................. 32*
C.   Cases Opened ....................................................................................................................................... 34
D.   Cases Closed......................................................................................................................................... 34

Investigations Recoveries, Forfeitures, and Management Avoidances

A    Potential Recoveries and Fines as a Result of OIG Investigations ..................................... $16,257,233*
B.   Asset Forfeitures Attributed to OIG Investigations ................................................................ $2,211,537
C.   Loans/Contracts Not Approved or Canceled as Result of Investigations.................................... $32,844
D.   Loans Not Approved as a Result of the Name Check Program ............................................ $12,041,457

     Total...................................................................................................................................... $30,543,071

SBA Personnel Actions Taken as a Result of Investigations

A    Dismissals............................................................................................................................................... 1
B.   Resignations/Retirements ....................................................................................................................... 1
C.   Suspensions ............................................................................................................................................ 2
D.   Reprimands............................................................................................................................................. 0
E.   Other ....................................................................................................................................................... 0

Program Actions Taken as a Result of Investigations

A. Suspensions and/or Debarments Recommended to the Agency ............................................................ 19
B. Suspensions and/or Debarments Pending at the Agency**.….….…………………………....…..40
C. Proposed Debarments Issued by the Agency ........................................................................................... 8
D. Final Debarments Issued by the Agency .................................................................................................. 4
E. Suspensions Issued by the Agency ......................................................................................................... 11
F. Proposed Debarments Declined by the Agency........................................................................................ 0
G. Actions by Other Agencies Resulting from Investigations in which the OIG Participated ................... 24

 * May include actions from earlier reporting periods.
**SBA has initiated administrative proceedings in twenty-six of the forty pending cases.




                                                                              [23]
        Appendix I: OIG Reports Issued October 1, 2011 through March 31, 2012



                         Small Business Access to Capital – Recovery Act

                                           Report            Issue      Questioned         Funds for
                 Title
                                           Number            Date         Costs            Better Use
Recovery Act 504 Loan Pool Transaction
                                           12-06R          12/15/2011                $0                 $0
Entry Process
High-Dollar Early-Defaulted Loans
Require an Increased Degree of Scrutiny
                                           12-11R          3/23/2012             $15,188                $0
and Improved Quality Control at the
National Guaranty Purchase Center
Program Subtotal                             2                                   $15,188                $0




            Small Business Development, Contracting, Education, and Training

                                           Report            Issue      Questioned         Funds for
                 Title
                                           Number            Date         Costs            Better Use
Small Business Administration’s
Rationale for Excluding Certain Types of
Contracts from the Annual Small             12-04          12/6/2011        $0                 $0
Business Procurement Calculations Needs
to be Documented
The SBA’s Improper Payment Review
and Reporting for its Contracting
                                            12-07           3/8/2012        $0                 $0
Activities did not Comply with IPERA
and IPIA Requirements During FY 2011
The SBA’s Office of International Trade
Inappropriately Awarded a One Million
Dollar State Trade and Export Promotion     12-12          3/30/2012    $1,022,781             $0
(STEP) Program Grand to an Ineligible
Recipient
Program Subtotal                             3                          $1,022,781             $0




                                                    [24]
          Appendix I: OIG Reports Issued October 1, 2011 through March 31, 2012



                                              Agency Management

                                                Report             Issue      Questioned   Funds for
                    Title
                                                Number             Date         Costs4     Better Use
Independent Auditors' Report on the
                                                  12-02          11/14/2011       $0          $0
SBA's FY 2011 Financial Statements
Audit of the SBA's Special-Purpose
                                                  12-03          11/15/2011       $0          $0
Financial Statements
KPMG Management Letter
Communicating Matters Relative to                 12-05          12/15/2011       $0          $0
SBA's FY 2011 Financial Statements
SBA’s Lender Loan Reporting Process
has Systemic Reporting Issues and Data            12-08          2/23/2012        $0       $7,700,000
Control Weaknesses
Accounting of FY 2011 Drug Control
Funds and Performance Summary Report
Independent Review of the SBA’s                   12-09          3/12/2012        $0          $0
FY 2011 Review of SBA’s Improper
                                                  12-10          3/15/2012        $0          $0
Payments
Review of the SBA’s Cash Gifts                    12-13          3/30/2012        $0           $0
Program Subtotal                                    7                             $0       $7,700,000
TOTALS (all programs)                              12                         $1,037,969   $7,700,000




4
    Questioned costs are those found to be improper.


                                                          [25]
                              Appendix II: OIG Reports with Questioned Costs


                                                                                                   Questioned          Unsupported
                                                 Reports          Recommendations5
                                                                                                   Costs6              Costs7

A.       No management decision
                                                      3                         6                  $6,110,404          $5,811,900
         made by September 30, 2011
B.       Issued during this reporting
                                                      2                         2                  $1,037,969          $0
         period
         Universe from which
         management decisions could
                                                      5                         8                  $7,148,373          $5,811,900
         be made in this reporting
         period – Subtotals
C.       Management decision(s) made
                                                      2                         5                  $4,010,404          $3,711,900
         during this reporting period
         (i) Disallowed costs                         4                         4                  $3,736,456          $3,711,900

         (ii) Costs not disallowed                    1                         1                  $273,948            $0
D.       No management decision
                                                      3                         3                  $3,137,969          $2,100,000
         made by March 31, 2012




     Appendix III: OIG Reports with Recommendations that Funds be put to Better Use


                                                                                                                 Recommended Funds
                                                          Reports             Recommendations
                                                                                                                 For Better Use
    A.    No management decision made
                                                              0                          0                       $0
          by September 30, 2011
    B.
          Issued during this reporting period                 1                          2                       $7,700,000
          Universe from which management
          decisions could be made in this                     1                          2                       $7,700,000
          reporting period – Subtotals
    C.    Management decision(s) made
                                                              0                          0                       $0
          during this reporting period
          (i) Recommendations agreed to by
                                                              0                          0                       $0
          SBA management
          (ii) Recommendations not agreed
                                                              0                          0                       $0
          to by SBA management
    D.    No management decision made
                                                              1                          2                       $7,700,000
          by March 31, 2012

5
  Reports may have more than one recommendation
6
  Questioned costs are those that found to be improper.
7
  Unsupported costs may be proper, but lack documentation. Unsupported costs are a subset of questioned costs.



                                                                    [26]
                   Appendix IV: OIG Reports with Non-Monetary Recommendations




                                                                                            Reports       Recommendations


A.         No management decision made by September 30, 2011*                                   6                21**


B.         Issued during this reporting period                                                 10                  91

           Universe from which management decisions could be made in
                                                                                               16                 112
           this reporting period – Subtotals

           Management decision(s) made (for at least one recommendation
C.                                                                                              6                  63
           in the report) during this reporting period

D.         No management decision made by March 31, 2012*                                      10                  49



     *     Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have
           recommendations that fall under both C. & D.
     **    Information is different than previously reported due to database corrections.




          Appendix V: Reports from Prior Periods with Overdue8 Management Decisions



                                                            Report            Date
                           Title                                                                        Status
                                                            Number           Issued
Premier Certified Lenders in the Section 504                                            The Agency has not responded to one
                                                              10-10         3/23/2010
Loan Program                                                                            recommendation in the report.
SBA's Funding of Information Technology
                                                                                        The Agency has not responded to five
Contracts Awarded to ISIKA Technologies,                      11-14         6/2/2011
                                                                                        recommendations in the report.
Inc.
Banco Popular Did Not Adequately Assess
Borrower Repayment Ability When                                                         The Agency has not responded to one
                                                              11-16         7/13/2011
Originating Huntington Learning Center                                                  recommendation in the report.
Franchise Loans
Release of Collateral by SBA's Disaster
                                                                                        The Agency has not responded to one
Processing and Disbursement Center Raises                     11-17         9/26/2011
                                                                                        recommendation in the report.
Concerns



8
    “Overdue” is defined as more than 180 days from the date of issuance.



                                                                       [27]
           Appendix VI: OIG Reports without Final Action as of March 31, 2012


                                                                                                 Final
                                                                                      Date of
Report                                                                    Date                   Action
                                     Title                                          Management
Number                                                                   Issued                  Target
                                                                                     Decision
                                                                                                  Date
 0-14        7(a) Service Fee Collections                                3/30/00      8/22/00    6/30/11
             SBA’s Oversight of the Fiscal Transfer Agent for
 3-08                                                                    1/30/03      10/15/03   4/30/12
             the 7(a) Loan Program
 3-26        Microloan Program                                           5/12/03      8/28/03    5/21/12
             Audit of SBA's Process for Complying with the
 4-34        Federal Managers' Financial Integrity Act                   7/29/04       9/9/04    4/30/11
             Reporting Requirements
             FY 2005 Financial Statements - Management
 6-10                                                                    1/18/06       3/7/06    9/30/12
             Letter
             Audit of SBA's Implementation of the Improper
 6-25                                                                    6/13/06      7/19/06    6/30/12
             Payments Information Act
             Audit of SBA's Fiscal Year 2006 Financial
 7-03                                                                    11/15/06     12/20/06   6/30/11
             Statements
 8-12        Oversight of SBA Supervised Lenders                          5/9/08      6/20/08    7/31/12
             Planning for the Loan Management and
 8-13        Accounting System Modernization and                         5/14/08      8/27/08    12/11/11
             Development Effort
             Audit of SBA’s Fiscal Year 2008 Financial
 9-03                                                                    11/14/08     9/30/09    12/15/10
             Statements
             Audit of SBA’s Fiscal Year 2008 Financial
 9-05                                                                    12/17/08     2/18/09    4/30/12
             Statements – Management Letter
             Review of SBA National Guaranty Purchase
 9-12                                                                    3/31/09      3/31/09    10/15/09
             Center Furniture Contract
             Participation in the 8(A) Program by Firms Owned
 9-15                                                                    7/10/09         *         **
             by Alaska Native Corporations
             SBA’s Fiscal Year 2008 Improper Payment Rate
 9-16                                                                    7/10/09         *         **
             for the 7(A) Guaranty Loan Program
             Review of Allegations Concerning How the Loan
 9-17        Management and Accounting System                            7/30/09         *         **
             Modernization Project is Being Managed
*       Management decision dates vary with different recommendations.
**      Target dates vary with different recommendations.




                                                         [28]
            Appendix VI: OIG Reports without Final Action as of March 31, 2012


                                                                                                     Final
                                                                                        Date of
Report                                                                      Date                    Action
                                      Title                                           Management
Number                                                                     Issued                   Target
                                                                                       Decision
                                                                                                     Date
              Monitoring of Insurance Coverage for Disaster
 10-01                                                                    10/20/09      11/6/09     5/31/12
              Loan Recipients
 10-04        Audit of SBA's FY 2009 Financial Statements                 11/13/09      12/11/09     6/1/10
              Review of Controls Over Job Creation and
 ROM
              Retention Statistics Reports by SBA Under the                12/4/09         *        8/31/11
 10-04
              American Recovery and Reinvestment Act of 2009
              Audit of SBA's FY 2009 Financial Statements -
 10-06                                                                    12/15/09      1/20/10       **
              Management Letter
              Premier Certified Lenders in the Section 504 Loan
 10-10                                                                     3/23/10      4/26/10     12/31/11
              Program
              Accuracy of Recovery Act Contract Award
 ROM          Obligations Reported to the Federal Procurement
                                                                           4/15/10       5/3/10     1/31/12
 10-14        Database System - Next Generation and
              Recovery.Gov
 ROM          SBA's Planning and Award of the Customer
                                                                           6/29/10      3/28/11       **
 10-16        Relationship Management Contracts
              Audit of the Assessment of the Community
 10-12                                                                    8/25/2010    3/28/2011   11/30/2011
              Express Pilot Loan Program
              Adequacy of Quality Assurance Oversight of the
 10-14                                                                     9/13/10         *        6/13/11
              Loan Management and Accounting System Project
 ROM          Notice of Finding and Recommendation on
                                                                           9/22/10       4/1/11     5/31/12
 10-18        Lender-Approved ARC Loans to Affiliates
 ROM          Material Deficiencies Identified in Early-Defaulted
                                                                           9/24/10         *          **
 10-19        and Early-Problem Recovery Act Loans
              Usefulness of the Small Business Innovation
 11-02                                                                    11/12/10       3/4/11     3/30/12
              Research Tech-Net Database
 11-03        Audit of SBA's FY 2010 Financial Statements                 11/12/10         *          **
              Audit of SBA's FY 2010 Financial Statements -
 11-05                                                                    12/15/10         *          **
              Management Letter
 ROM          Improper Allotment of Recovery Act
                                                                          12/15/10       2/9/11     2/28/11
 11-01        Apportionments


*        Management decision dates vary with different recommendations.
**       Target dates vary with different recommendations.




                                                          [29]
            Appendix VI: OIG Reports without Final Action as of March 31, 2012


                                                                                  Date of
Report                                                                Date                   Final Action
                                       Title                                    Management
Number                                                               Issued                  Target Date
                                                                                 Decision
              Weaknesses Identified During the FY 2010 FISMA
 11-06                                                               1/28/11      3/28/11        **
              Review
              Processing of Insurance Recovery Checks at the
 11-07                                                               2/10/11        *            **
              Disaster Loan Servicing Centers
              SBA’s Procurement of Information Technology
 11-08        Hardware and Software Through Isika                    2/25/11      3/30/11        **
              Technologies, Inc.
 ROM          Quality of SBA's Recovery Act Data on Public
                                                                    3/22/2011     10/6/11        **
 11-04        Websites
              Management Advisory Report on Records
 11-10        Management and Documentation Process at the            3/29/11      6/20/11        **
              Disaster Loan Servicing Centers
              Effectiveness of SBA's Surveillance Review
 11-11                                                               3/31/11        *         12/31/11
              Process
              Release of Collateral by the Disaster Loan
 11-15                                                               6/3/11       6/20/11      4/15/12
              Servicing Centers
              Material Deficiencies Identified in Four 7(A)
 ROM
              Recovery Act Loans Resulted in $3.2 Million of         6/29/11      7/19/11      7/12/12
 11-05
              Questioned Costs
              Banco Popular did not adequately assess Borrower
 11-16        Repayment Ability when Originating Huntington          7/13/11      9/30/11      6/30/12
              Learning Center Franchise Loans
              Material Deficiencies Identified in Five 7(A)
 ROM
              Recovery Act Loans Resulted in $2.7Million of          8/22/11     11/14/11     01/31/12
 11-06
              Questioned Costs
 ROM          Origination and Closing Deficiencies Identified In
                                                                     9/30/11        *            **
 11-07        7(a) Recovery Act Loan Approvals
              Independent Auditors' Report on the SBA's FY
 12-02                                                              11/14/11     12/22/11        **
              2011 Financial Statements
              KPMG Management Letter Communicating
 12-05        Matters Relative to SBA's FY 2011 Financial           12/15/11        *            **
              Statements
              Recovery Act 504 Loan Pool Transaction Entry
12-06R                                                              12/15/11      1/24/12      9/30/12
              Process

**       Target dates vary with different recommendations.




                                                             [30]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012


                                                                          Date of
Report    Date                                                                       Final Action
                                 Recommendation                         Management
Number   Issued                                                                      Target Date
                                                                         Decision
                    Establish internal controls that ensure that
                    OBO and OPGM are unable to modify
 9-12    3/31/09                                                          3/31/09      10/15/09
                    contracts without the appropriate supporting
                    documentation, including a statement of work.
                    Conduct a program review to evaluate whether
                    the growth in ANC 8(a) obligations has
                    adversely impacted, or will adversely impact,
 9-15    7/10/09    other 8(a) firms and the overall effectiveness of      8/4/09      9/30/12
                    the 8(a) program and, if so, make
                    programmatic revisions to minimize the
                    adverse impact.
                    As part of the recommended program review,
                    determine whether 8(a) firms owned by ANCs
                    and tribes should continue to be exempt from
 9-15    7/10/09                                                           8/2/09      6/30/11
                    the cap on total sole source awards in CFR
                    124.519 and, if not, remove the exemption
                    from this regulation.
                    Take steps to modify the contract to require the
                    QA/IV & V contractor to report all findings
 9-17    7/30/09    and recommendations to the Program Manager            8/28/09      9/30/09
                    and an independent QA Manager designated by
                    the CIO.
                    Establish a process for reviewing and accepting
 9-17    7/30/09    LMAS deliverables that complies with SDM              8/28/09      9/30/09
                    requirements.
                    Take steps to ensure that a well-defined
                    deliverable acceptance process is established
 9-17    7/30/09                                                           9/3/09      4/30/11
                    for the LMAS project in accordance with
                    SBA's Enterprise Quality Assurance Plan.
                    Determine the actions needed to achieve
                    compliance with statutory flood insurance
 10-01   10/20/09                                                         11/6/09      5/31/12
                    monitoring requirements and the cost
                    implications of achieving compliance.
                    Develop and execute a plan for achieving
                    compliance on existing and future loans.
 10-01   10/20/09   Alternatively, if achieving compliance is             11/6/09      5/31/12
                    determined to be not cost effective, seek
                    additional funding or a legislative change to the
                    statutory flood insurance requirement.
                    Revise SOP 50-52 to clarify what action(s)
 10-01   10/20/09   servicing center personnel should take when           11/6/09      5/31/12
                    borrowers refuse to obtain required hazard
                    insurance.
 10-04   11/13/09   Implement a process to monitor the audit logs         12/11/09      6/1/10
                    of all financial applications on a regular basis.



                                                 [31]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012


                                                                         Date of
Report     Date                                                                     Final Action
                                 Recommendation                        Management
Number    Issued                                                                    Target Date
                                                                        Decision
                    Implement the necessary controls to check the
                    reasonableness of data, including user prompts,
 ROM                range checks, and the prevention of negative
          12/4/09                                                        2/17/10      8/31/11
 10-04              figures in E-Tran to ensure the accuracy of
                    lender-reported job creation and retention
                    statistics.
                    Implement a data quality review and testing
 ROM
          12/4/09   process to determine if job data is properly          2/2/10      08/31/11
 10-04
                    recorded, classified, and reported.
                    Evaluate the need to establish monetary or other
                    guidelines on the level of excess funds that
 10-10    3/23/10   CDCs should retain as a reserve for future           4/26/10      12/31/11
                    operations and/or invest in other local economic
                    development activities.
                    Reconcile Recovery Act contract awards
                    reported to FPDS-NG and Recovery.Gov and
 ROM                report to Recovery.Gov all non-competitive
          4/15/10                                                         5/3/10      1/31/12
 10-14              contract awards previously not reported to
                    Recovery.Gov including the eight contract
                    actions identified by the OIG.
                    Exclude the CRM contract awarded to Copper
 ROM                River from SBA calculations used to determine
          6/29/10                                                        3/28/11      9/30/11
 10-16              the number of 8(a) program contracts and small
                    business contracts for fiscal year 2009.
                    Work with the OCIO to establish measurable
                    outcomes for the CRM initiative and identify the
 ROM                likelihood that a contractor could meet
          6/29/10                                                        3/28/11      5/15/11
 10-16              measurable outcomes in contract evaluation
                    criteria for any future contracts under this
                    initiative.
                    Revise the LMAS QA plan to incorporate all the
 10-14    9/13/10   components required by the enterprise-wide QA        10/21/10     6/13/10
                    plan.
                    Take steps to hold TestPros accountable for
 10-14    9/13/10   performing the activities specified in its           10/19/10     6/13/10
                    contract.
                    Cancel the loan guaranties and collect any
 ROM                associated interest paid to the lenders for any
          9/22/10                                                         4/1/11      5/31/12
 10-18              loans that SBA determines were made to
                    ineligible companies.




                                               [32]
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
        Reporting Periods without Final Action as of March 31, 2012


                                                                           Date of
Report    Date                                                                        Final Action
                                  Recommendation                         Management
Number   Issued                                                                       Target Date
                                                                          Decision
                    Implement a process for providing feedback to
 ROM     9/24/10    SBA employees and lenders when deficiencies            12/17/10     12/15/11
 10-19              are identified.

                    Require the lenders to bring the 25 purchased
 ROM     9/24/10    loans with material deficiencies into compliance        4/1/11      02/15/12
 10-19              and recover the $375,259 in guaranties paid.

                    Flag the other loans that have not yet been
 ROM                purchased to ensure the loan deficiencies are
         9/24/10                                                           6/29/11      04/15/12
 10-19              properly addressed at the time of the purchase
                    review.
                    Require participating agencies to submit award
 11-02   11/12/10   information to SBA and other participating              3/4/11      3/30/12
                    agencies at the time of award, as required by
                    SBIR Policy Directive, Section 7(a) (iii).
                    Coordinate with SBA program offices to:
                    improve the vulnerability tracking and
                    monitoring process to fully address high and
                    medium risk vulnerabilities for key financial
                    systems; ensure that the vulnerability reports are
 11-03   11/12/10   reviewed and analyzed on a regular basis;              12/8/10      4/20/11
                    periodically monitor the existence of necessary
                    services and protocols running on servers and
                    network devices; and develop a more thorough
                    approach to track and mitigate patch
                    management and configuration management
                    vulnerabilities identified during monthly scans.
                    Develop a comprehensive security education
 11-03   11/12/10   and training program for all IT security                2/7/11       6/1/11
                    personnel and a method for monitoring the
                    training program.
                    Implement and enforce the procedures
                    documented in SOP 90.47.2 for sanitizing media
                                                                           3/23/11      4/15/11
 11-03   11/12/10   to be disposed and for maintaining a log of
                    employees who sanitize media to validate the
                    appropriateness of the sanitization process.
                    Coordinate with program offices using end-user
                    programs containing sensitive data, such as
                                                                            1/3/11      4/15/11
 11-03   11/12/10   Personally Identifiable Information and financial
                    data, to implement end-user computing
                    procedures in accordance with the guidance.




                                               [33]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012


                                                                          Date of
Report    Date                                                                       Final Action
                                  Recommendation                        Management
Number   Issued                                                                      Target Date
                                                                         Decision
                    Enforce an organization-wide configuration
                    management process, to include policies and
 11-03   11/12/10   procedures for maintaining documentation that         2/7/11       4/30/11
                    supports testing and approvals of software
                    changes.
                    Coordinate with SBA program offices to prevent
                    users from anonymously connecting
 11-03   11/12/10   unauthorized devices by developing and                2/10/11      4/15/11
                    implementing procedures to ensure mandatory
                    domain authentication for IP address issuance.
                    Coordinate with SBA program offices to
                    develop and implement procedures for user
 11-03   11/12/10                                                         2/10/11      4/29/11
                    access reviews to ensure that proper access
                    rights are set for financial subsystems.
                    Implement procedures and conduct audits of
 11-03   11/12/10   financial system software changes to ensure all       12/8/10      1/31/11
                    changes are sufficiently approved and tested.
                    Update the system‘s program logic to ensure
 11-05   12/15/10   that qualifying loans with executed due process       2/10/11      11/30/11
                    notices will be automatically referred.
                    Work with the Chief Information Officer to
                    perform an analysis of loans charged-off in prior
 11-05   12/15/10                                                         2/9/11       11/30/11
                    years to identify and correct any DCIA non-
                    compliance issues noted.

                    Continue to allocate resources as required to
 11-05   12/15/10                                                         3/7/11        3/7/11
                    timely address charge-offs.

                    Work with the HubZone Program Office
                    Director to develop and implement controls to
                    more effectively monitor the execution of its
                    policies and procedures, particularly related to
 11-05   12/15/10                                                         3/31/11      12/31/11
                    the authorization of payroll transactions and the
                    performance of leave audits, to ensure that they
                    are being followed (e.g., develop policies that
                    require quarterly audits of leave discrepancies).




                                                [34]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012

                                                                           Date of
Report    Date                                                                        Final Action
                                  Recommendation                         Management
Number   Issued                                                                       Target Date
                                                                          Decision
                    Revise the current methodology to maintain and
                    periodically update SBA‘s organizational
 11-05   12/15/10                                                          3/31/11      9/30/11
                    structure, functional statements, and charts.
                    Further, the revised methodology should be
                    documented in the SOP.
                    Reinforce, through management training, the
 11-05   12/15/10                                                          3/31/11      9/30/11
                    importance of properly and fully completing the
                    Separation Checklist.
                    Continue work with Colson to implement
                    consistent edit checks so that a meaningful
 11-05   12/15/10                                                          4/25/11      1/31/12
                    monthly comparison and reconciliation can be
                    made between the errors identified by Colson
                    and those identified by SBA.
                    Work with the Chief Information Officer to
                    conduct an in-depth analysis of the existing
 11-05   12/15/10   Treasury referral protocol to identify and correct     2/10/11      11/30/11
                    the program coding that is preventing the 139
                    charged-off loans from being automatically
                    referred.
                    Work with the Chief Information Officer to
 11-05   12/15/10   implement interim, quarterly monitoring reviews        2/9/11       11/30/11
                    to identify all charged-off loans where the
                    automatic referral did not occur.
                    Ensure the newly implemented Funds Control
 ROM
         12/15/10   System has adequate system controls in place to        2/9/11       2/28/11
 11-01
                    prevent allotments from exceeding apportioned
                    amounts.
                    Update the list of Major Systems to include all
                    the interfaces between each system and all other
                    systems and networks, including those not
 11-06   1/28/11                                                           3/28/11      9/30/11
                    operated by, or under the control of the agency
                    and obtain written Interconnection Security
                    Agreements for every SBA system that has an
                    interconnection to another system.
                    Enforce SOP 90-47 2 requirements for
                    contractor background investigations and
 11-06   1/28/11                                                           3/28/11      3/31/11
                    perform periodic reviews to ensure that SBA
                    contractors have completed the clearance
                    process prior to accessing sensitive information.
                    Establish a program at SBA to manage, control
                    and monitor system interconnections throughout
 11-06   1/28/11    their lifecycle. The program should encompass          3/28/11      9/30/11
                    planning, establishing, maintaining, and
                    terminating system interconnections, including
                    enforcement of security requirements.



                                                [35]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012


                                                                         Date of
Report    Date                                                                      Final Action
                                 Recommendation                        Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   Develop configuration management policies and
                   procedures that address purpose, scope, roles,
 11-06   1/28/11                                                         3/28/11      9/30/11
                   responsibilities, management commitment,
                   coordination among organizational entities, and
                   compliance.
 11-06   1/28/11   Develop and maintain a centralized inventory of       3/28/11      9/30/11
                   all agency hardware and software.
                   Revise the SBA Certification and Accreditation
                   Program Description procedural document to
 11-06   1/28/11                                                         3/28/11      6/30/11
                   reflect the risk management framework
                   approach established in NIST SP 800-37, Rev.1,
                   and the current POA&M process.
                   Modify the POA&M reporting tool to comply
 11-06   1/28/11                                                         3/28/11      4/30/11
                   with the requirements set forth in OMB
                   Memorandum 04-25.
                   Develop and test system disaster recovery plans
 11-06   1/28/11   for all of SBA’s major systems at least annually      3/28/11      7/30/11
                   and initiate any necessary corrective actions
                   based on test results.
                   Identify and recover other DOBs improperly
 11-07   2/10/11                                                         4/7/11       4/30/12
                   returned during FY 2008, FY 2009, and FY
                   2010.
                   Assign the processing of insurance recovery
                   checks to selected individual(s) at each center
 11-07   2/10/11                                                         4/7/11       4/30/12
                   and provide them training to allow them to
                   become proficient in calculating duplication of
                   benefits.
                   Ensure the servicing centers document all of the
 11-07   2/10/11                                                         4/19/11      4/30/12
                   information related to the decision to return or
                   retain each check for future reference.
                   Instruct the contracting officer to immediately
                   terminate contracts: SBAHQ-09-D-0009,
                   SBAHQ-10-D-0001, and Blanket Purchase
 11-08   2/25/11                                                         3/30/11       7/1/11
                   Agreement (BPA) SBAHQ-10-A-0001 and re-
                   solicit the information technology (IT) hardware
                   and software requirement using full and open
                   competition procedures.
                   Conduct a comprehensive review of data
                   submitted to the Federal Procurement Data
 11-08   2/25/11   System – Next Generation (FPDS-NG) for SBA            3/30/11      1/31/12
                   contracts awarded to iTechnologies, reconcile all
                   discrepancies identified, and correct any
                   inaccurately reported data.



                                             [36]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012

                                                                        Date of
Report    Date                                                                     Final Action
                                 Recommendation                       Management
Number   Issued                                                                    Target Date
                                                                       Decision
                   Research the $21,627,140 in this report to
 ROM               determine whether the award has been made or
         3/22/11                                                        10/6/11      6/30/12
 11-04             the funds should be deobligated. This research
                   should result in these actions being posted to
                   FPDS.gov.
                   Deploy an independent statistical verification
 ROM
         3/22/11   and validation of all SBA transactions awarded       10/6/11      6/30/12
 11-04
                   and subsequently reported to FPDS.gov.
                   Research the $695,157 in this report to
                   determine the disposition of these awards and
 ROM               whether Recovery Act funds were actually used
         3/22/11                                                        10/6/11      1/31/12
 11-04             to fund the awards. If not, these awards need to
                   be corrected in PRISM, FPDS.gov, and the
                   contract files.
                   Develop and implement a data quality plan that
 ROM               documents processes to ensure timely, accurate,
         3/22/11                                                        10/6/11      6/30/12
 11-04             and complete submission of contracts data to
                   USASpending.gov.
                   Implement continuous monitoring procedures to
                   ensure that contractor-reported information is
 ROM
         3/22/11   correct and accurate, and that all prime             10/6/11      12/31/11
 11-04
                   contractors are accurately reporting the use of
                   subcontractors.
                   Develop record designation and retention
                   requirements for all loan servicing documents
                   and coordinate with the Office of Management
                   & Administration to incorporate this guidance
 11-10   3/29/11                                                        6/20/11      12/31/11
                   into SOP 50 52. The requirements should
                   specify which documents should be designated
                   as records, and therefore retained, and for how
                   long.




                                              [37]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012

                                                                           Date of
Report    Date                                                                        Final Action
                                 Recommendation                          Management
Number   Issued                                                                       Target Date
                                                                          Decision
                   Revise SOP 50 52 to include a requirement to
                   preserve the analyses performed to conduct all
                   servicing actions. A summary of the analysis
                   should be present on the Form 327 and the detail
 11-10   3/29/11   of the analysis should accompany the SBA Form           6/20/11      12/31/11
                   327 action. The analysis should include
                   sufficient detail to permit an outside party, not
                   connected with the transaction, to verify the
                   accuracy of the decision.
                   Refine the electronic recordkeeping system to
                   facilitate usability so that all documents of a
 11-10   3/29/11                                                           6/20/11      4/15/12
                   specific type and for a specific range of dates
                   can be located and retrieved.
                   Take the appropriate steps to amend SBA’s
                   selection criteria to include errors identified in
                   GC’s anomaly reports, data on 8(a) contracting
 11-11   3/31/11                                                           7/7/11       12/31/11
                   activity, and inquiries to SBA’s 8(a) Business
                   Development staff on suspected problems on
                   8(a) contract execution.
                   Take the appropriate steps to amend SBA’s
                   selection criteria to eliminate those criteria that
 11-11   3/31/11   do not indicate risk with the contracting activity,     7/12/11      12/31/11
                   i.e. availability to staff within commuting
                   distance.
                   Take the appropriate steps to develop and
                   implement a strategy that ensures contracting
 11-11   3/31/11   activities that meet SBA’s selection criteria are       7/7/11       12/31/11
                   identified, prioritized on a nation-wide basis,
                   and targeted for a surveillance review.
                   Take the appropriate steps to determine (a) the
                   level of effort needed to establish an effective
 11-11   3/31/11   monitoring process for small business                   7/7/11       12/31/11
                   procurement activities and (b) the amount of
                   resources needed to implement such a process.
                   Take the appropriate steps to request resources
                   from the Agency or through the annual budget
 11-11   3/31/11                                                           7/7/11       12/31/11
                   process as appropriate (Based on the results
                   from Recommendation #3).




                                                [38]
 Appendix VII: Summary of Significant Recommendations from Prior Semiannual
         Reporting Periods without Final Action as of March 31, 2012

                                                                         Date of
Report    Date                                                                      Final Action
                                 Recommendation                        Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   Revise Chapter 4, “How Do I Perform a
                   Surveillance Review?” and corresponding
                   appendices. Update SOP 60 02 7, Prime
                                                                         7/7/11       12/31/11
 11-11   3/31/11   Contracts Program, to modify definitions of
                   rating categories to minimize subjectivity within
                   each rating category, including examples of
                   major and minor deficiencies.
                   Revise Chapter 4, “How Do I Perform a
                   Surveillance Review?” and corresponding
                   appendices. Update SOP 60 02 7, Prime
                   Contracts Program, to include (1) 8(a) Business
                   Development Program specific requirements as          7/7/11       12/31/11
 11-11   3/31/11
                   identified in the Partnership Agreements and
                   Procedural Notice 8000-632; and (2) 8(a)
                   Business Development Program in Appendix 7,
                   Analysis of Contract Files and Appendix 8,
                   Interview Questions.
                   Revise Chapter 4, “How Do I Perform a
                   Surveillance Review?” and corresponding
                   appendices. Update SOP 60 02 7, Prime
                                                                         7/7/11       12/31/11
 11-11   3/31/11   Contracts Program, to establish a formal follow-
                   up process that ensures PCRs receive copies of
                   final reports and follow-up on deficiencies and
                   recommendations.
                   Issue written instructions to remind surveillance
                   review teams to address all interview and             7/7/11       12/31/11
 11-11   3/31/11
                   contract review checklist questions.
                   Issue written instructions to remind surveillance
                   review teams to evaluate whether contracting          7/7/11       12/31/11
 11-11   3/31/11
                   activities are monitoring the performance of
                   work requirements on contracts they administer.
                   Develop and implement a plan to ensure that
                   surveillance review reports are issued to the         7/7/11       12/31/11
 11-11   3/31/11
                   contracting activity that was reviewed within a
                   specific timeframe.




                                               [39]
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
        Reporting Periods without Final Action as of March 31, 2012


                                                                            Date of
Report    Date                                                                         Final Action
                                  Recommendation                          Management
Number   Issued                                                                        Target Date
                                                                           Decision
                    Establish procedures to discontinue SBA's                          Target date not
                    practice of inappropriately obligating funds on         Overdue
 11-14    6/2/11                                                                        established.
                    contracts in anticipation of future needs.
                    Review all ongoing SBA indefinite
                    delivery/indefinite quantity contracts as a part of
                    good financial management practices to ensure                      Target date not
                                                                            Overdue
 11-14    6/2/11    that task orders are being issued in accordance                     established.
                    with Federal Acquisition Regulation Subpart
                    165.505 and not as a tool to inappropriately
                    obligate funds.
                    Provide additional training to servicing center
                    staff to increase proficiency in performing             6/20/11       04/15/12
 11-15    6/3/11
                    appropriate release of collateral.
                    Seek recovery of $373,532, plus interest, from
 ROM                Chetco Federal Credit Union on the guaranty             7/19/11       07/12/12
         6/29/11
 11-05              paid by SBA for the loan to The Henry Group of
                    Oregon, LLC.
                    Seek recovery of the loan guaranties, less any                     Target date not
                    recoveries, paid in connection with the 10              Overdue
 11-16   7/13/11                                                                        established.
                    defaulted loans and their associated lines of
                    credit.
                    Ensure all SBA loan officers involved in the
                    loan approval and purchase processes
 ROM                understand and implement the steps necessary to         11/14/11      1/31/12
         8/22/11
 11-06              identify all affiliates and determine their impact
                    on repayment ability, size, and SBA’s guaranty
                    percentage.
                    Flag the 10 lender-approved loans with
                    identified deficiencies that pose an approximate
                    $3 million risk of loss to the SBA to ensure the
                    deficiencies are properly addressed if the loans
 ROM                                                                        12/12/11      06/30/12
         9/26/11    default and are submitted for purchase. Further,
 11-07
                    notify the OIG of any denials, repairs,
                    withdrawals, or cancellations of SBA’s
                    guaranties made as a result of the deficiencies
                    identified during the purchase reviews.
                    Revise SOP 50-52 to clarify what action(s)
                    servicing center personnel should take when             11/6/09       5/31/12
 10-01   10/20/09
                    borrowers refuse to obtain required hazard
                    insurance.




                                                [40]
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
        Reporting Periods without Final Action as of March 31, 2012

                                                                         Date of
Report    Date                                                                      Final Action
                                 Recommendation                        Management
Number   Issued                                                                     Target Date
                                                                        Decision
                    Implement a process to monitor the audit logs of
 10-04   11/13/09                                                        12/11/09      6/1/10
                    all financial applications on a regular basis.

                    Implement the necessary controls to check the
                    reasonableness of data, including user prompts,
 ROM                range checks, and the prevention of negative
         12/4/09                                                         2/17/10      8/31/11
 10-04              figures in E-Tran to ensure the accuracy of
                    lender-reported job creation and retention
                    statistics.
                    Implement a data quality review and testing
 ROM
         12/4/09    process to determine if job data is properly          2/2/10      8/31/10
 10-04
                    recorded, classified, and reported.
                    Evaluate the need to establish monetary or other
                    guidelines on the level of excess funds that
 10-10   3/23/10    CDCs should retain as a reserve for future           4/26/10      12/31/11
                    operations and/or invest in other local economic
                    development activities.




                                              [41]
Appendix VIII: Summary of Significant Recommendations October 1, 2011 - March 31, 2012



Report                               Date
                  Title                                            Recommendation
Number                              Issued
                                                  The CIO coordinate with SBA program offices to
                                                  enhance security vulnerability management processes.
                                                  Specifically, the SBA should: (a) redistribute
                                                  procedures and train employees on the process for
                                                  reviewing and mitigating security vulnerabilities, (b)
                                                  periodically monitor the existence of unnecessary
                                                  services and protocols running on their servers and
         Independent Auditor’s                    network devices, (c) perform vulnerability
         Report on the SBA’s FY                   assessments with administrative credentials and
 12-02                            11/14/2011
         2011 Financial                           penetration tests on all SBA offices from a centrally
         Statements                               managed location with a standardized reporting
                                                  mechanism that allows for trending, on a regularly
                                                  scheduled basis in accordance with NIST guidance,
                                                  (d) develop a more thorough approach to track and
                                                  mitigate configuration management vulnerabilities
                                                  identified during monthly scans, and (e) monitor
                                                  security vulnerability reports for necessary or required
                                                  configuration changes to their environment.
                                                  The CIO coordinate with SBA program offices to
                                                  update the VAT procedures, to include: (a) updating
                                                  the VAT policies and procedures in accordance with
         Independent Auditor’s                    NIST, (b) performing technical reviews of the results
         Report on the SBA’s FY                   for critical issues that need immediate action and take
 12-02                            11/14/2011
         2011 Financial                           timely corrective action, (c) executing procedures to
         Statements                               monitor the completion of the patch management
                                                  deployment across the SBA enterprise, and (d)
                                                  prioritizing vulnerabilities as part of the ongoing
                                                  continuous monitoring process.
                                                  The CIO coordinate with SBA program offices to
         Independent Auditor’s                    prevent users from anonymously connecting
         Report on the SBA’s FY                   unauthorized devices by developing and
 12-02                            11/14/2011
         2011 Financial                           implementing procedures to ensure mandatory domain
         Statements                               authentication for Internet Protocol (IP) address
                                                  issuance.
         Independent Auditor’s
                                                  The CIO coordinate with SBA program offices to
         Report on the SBA’s FY
 12-02                            11/14/2011      ensure users’ access rights are authorized prior to
         2011 Financial
                                                  gaining access to financial systems.
         Statements
         Independent Auditor’s                    The CIO coordinate with SBA program offices to
         Report on the SBA’s FY                   fully implement the SBA entity wide incident
 12-02                            11/14/2011
         2011 Financial                           management and response program and ensure that
         Statements                               procedures are enforced.
         Independent Auditor’s
                                                  The CIO coordinate with SBA program offices to
         Report on the SBA’s FY
 12-02                            11/14/2011      ensure that information systems hosted by third
         2011 Financial
                                                  parties comply with SBA policy and NIST guidance.
         Statements



                                               [42]
Appendix VIII: Summary of Significant Recommendations October 1, 2011 - March 31, 2012


Report                                 Date
                   Title                                                 Recommendation
Number                                Issued
          Independent Auditor’s                        The CIO coordinate with SBA program offices to
          Report on the SBA’s FY                       develop and implement procedures for user access
  12-02                            11/14/2011
          2011 Financial                               reviews to ensure that proper access rights are set for
          Statements                                   financial subsystems.
          Independent Auditor’s
                                                       The CIO coordinate with SBA program offices to
          Report on the SBA’s FY
  12-02                            11/14/2011          oversee the review and validation of financial system
          2011 Financial
                                                       accounts on a quarterly basis.
          Statements
          Independent Auditor’s
                                                       The CIO coordinate with SBA program offices to
          Report on the SBA’s FY
  12-02                            11/14/2011          implement a process to monitor the audit logs of all
          2011 Financial
                                                       financial applications on a regular basis.
          Statements
                                                       The CIO coordinate with the CFO to restrict access to
          Independent Auditor’s
                                                       software program libraries based on the principle of
          Report on the SBA’s FY
  12-02                            11/14/2011          least privilege, and implement compensating controls
          2011 Financial
                                                       over actions where limited resources cause individuals
          Statements
                                                       to perform conflicting job functions.
          Independent Auditor’s                        The CIO coordinate with the CFO to ensure that DBA
          Report on the SBA’s FY                       and system administrator access is restricted through
  12-02                            11/14/2011
          2011 Financial                               role-based segregation of duties and managed through
          Statements                                   an effective audit log review process.
          Independent Auditor’s
                                                       The CIO develop a comprehensive security education
          Report on the SBA’s FY
  12-02                            11/14/2011          and training program for all IT security personnel and
          2011 Financial
                                                       a method for monitoring the training program.
          Statements
          Independent Auditor’s                        The CIO enforce an organization-wide configuration
          Report on the SBA’s FY                       management process, to include policies and
  12-02                            11/14/2011
          2011 Financial                               procedures for maintaining documentation that
          Statements                                   supports testing and approvals of software changes.
          Independent Auditor’s                        The CIO implement configuration management
          Report on the SBA’s FY                       policies and procedures for document retention (to
  12-02                            11/14/2011
          2011 Financial                               include supporting evidence) to validate the
          Statements                                   authorization of operating system changes.
          Independent Auditor’s
          Report on the SBA’s FY                       The CIO enforce existing SBA policies to rotate
  12-02                            11/14/2011
          2011 Financial                               backups off-site.
          Statements
          Independent Auditor’s
                                                       The CIO coordinate with the CFO to create,
          Report on the SBA’s FY
  12-02                            11/14/2011          implement, and test system specific and the HQ
          2011 Financial
                                                       COOP.
          Statements




                                                [43]
Appendix VIII: Summary of Significant Recommendations October 1, 2011 - March 31, 2012


Report                                     Date
                    Title                                                   Recommendation
Number                                    Issued
          Small Business
          Administration’s                                The Associate Administrator, Government
          Rationale for Excluding                         Contracting and Business Development revise the
          Certain Types of                                Goaling Guidelines for the Small Business Preference
  12-04                                12/6/2011
          Contracts from the                              Programs to include contracts awarded and/or
          Annual Small Business                           performed overseas in the small business goaling
          Procurement Calculations                        baseline beginning with fiscal year 2011.
          Needs to be Documented
          The SBA’s Improper
          Payment Review and
          Reporting for its                               Develop and implement a more robust test plan that
  12-07   Contracting Activities did   3/8/2012           provides reasonable assurance of detecting improper
          not Comply with IPERA                           payments within the program during FY 2012.
          and IPIA Requirements
          During FY 2011
          The SBA’s Improper                              Determine the underlying causes of the contracting
          Payment Review and                              activities improper payments for the FY2011 IPERA
          Reporting for its                               review and develop and implement a robust
  12-07   Contracting Activities did   3/8/2012           Corrective Action Plan and a Payment Recapture
          not Comply with IPERA                           Audit Plan for the improper payments of its
          and IPIA Requirements                           contracting activities for FY2011 or obtain a written
          During FY 2011                                  waiver from OMB.
          The SBA’s Improper
          Payment Review and
                                                          Provide contract training to the SBA personnel
          Reporting for its
                                                          responsible for developing the test plan and
  12-07   Contracting Activities did   3/8/2012
                                                          performing the agency’s improper payment review to
          not Comply with IPERA
                                                          ensure the detection of improper payments.
          and IPIA Requirements
          During FY 2011
          The SBA’s Improper
          Payment Review and
          Reporting for its                               Develop procedures to annually review the SBA’s
  12-07   Contracting Activities did   3/8/2012           Corrective Action Plan to determine if actions are
          not Comply with IPERA                           sufficient.
          and IPIA Requirements
          During FY 2011
                                                          Submit to the Senate Homeland Security and
                                                          Government Affairs Committee and the House
          The SBA’s Improper
                                                          Committee on Oversight and Governmental Reform
          Payment Review and
                                                          within 90 days of this memorandum a plan that
          Reporting for its
                                                          includes: (a) Measurable milestones for becoming
  12-07   Contracting Activities did   3/8/2012
                                                          compliant with IPERA; (b) designation of an
          not Comply with IPERA
                                                          accountable senior agency official; and (c) The
          and IPIA Requirements
                                                          establishment of an accountability mechanism,
          During FY 2011
                                                          describing the actions the agency will take to become
                                                          compliant.




                                                   [44]
Appendix VIII: Summary of Significant Recommendations October 1, 2011 - March 31, 2012


Report                                  Date
                    Title                                                 Recommendation
Number                                 Issued
                                                       The Associate Administrator, Office of Capital
          SBA’s Lender Loan                            Access, research, and correct loans that have not been
          Reporting Process has                        reported within the Electronic Loan Information
  12-08   Systemic Reporting        2/23/2012          Processing System (ELIPS) for a significant length of
          Issues and Data Control                      time (i.e. 6 months or more) which contribute to
          Weaknesses                                   subsidy overstatements currently estimated at $5.2
                                                       million.
          SBA’s Lender Loan
                                                       The Associate Administrator, Office of Capital
          Reporting Process has
                                                       Access, utilize the “lender exception” detail reports to
  12-08   Systemic Reporting        2/23/2012
                                                       identify and address lenders that consistently do not
          Issues and Data Control
                                                       report loans and issue corrective action plans.
          Weaknesses
          SBA’s Lender Loan                            The Associate Administrator, Office of Capital
          Reporting Process has                        Access, ensure that currently operated systems are
  12-08   Systemic Reporting        2/23/2012          authorized for operation and meet the requirements of
          Issues and Data Control                      applicable NIST guidance and that any new system
          Weaknesses                                   meets this requirement before becoming operational.
          SBA’s Lender Loan
                                                       The Associate Administrator, Office of Capital
          Reporting Process has
                                                       Access, collect the $2.5 million in secondary market
  12-08   Systemic Reporting        2/23/2012
                                                       late penalty fees by either billing lenders or offsetting
          Issues and Data Control
                                                       against any guarantee purchase amounts.
          Weaknesses
                                                       The Associate Administrator for Capital Access adjust
          FY 2011 Review of
                                                       the risk assessment to separately assess the risk of
  12-10   SBA’s Improper            3/15/2012
                                                       improper 7(a) guaranty loan approvals and improper
          Payments
                                                       7(a) guaranty default.
                                                       The Associate Administrator for Capital Access adjust
                                                       the testing process for 7(a) loan approvals to ensure
          FY 2011 Review of
                                                       all necessary documentation is obtained and a
  12-10   SBA’s Improper            3/15/2012
                                                       determination is made as to whether the loans were
          Payments
                                                       approved in compliance with the relevant program
                                                       regulations and requirements.
                                                       The Associate Administrator for Capital Access, upon
                                                       revising the improper payments test procedures and
          FY 2011 Review of
                                                       estimating an accurate rate of improper payments,
  12-10   SBA’s Improper            3/15/2012
                                                       develop a corrective action plan for 7(a) loan
          Payments
                                                       approvals that correctly addresses root causes and will
                                                       reduce improper payments.
                                                       The Associate Administrator for Capital Access
          FY 2011 Review of                            require loan officers to thoroughly evaluate
  12-10   SBA’s Improper            3/15/2012          creditworthiness (including repayment ability) on
          Payments                                     early default loans during both guaranty purchase and
                                                       improper payment reviews.
                                                       The Associate Administrator for Capital Access
          FY 2011 Review of
                                                       determine and report an accurate statistically valid
  12-10   SBA’s Improper            3/15/2012
                                                       estimate of improper 7(a) default purchases for FY
          Payments
                                                       2012 in the next Agency Financial Report.



                                                [45]
Appendix VIII: Summary of Significant Recommendations October 1, 2011 - March 31, 2012


Report                                  Date
                   Title                                                 Recommendation
Number                                 Issued
                                                       The Associate Administrator for Capital Access, upon
          FY 2011 Review of                            completing the revised improper payment rate
  12-10   SBA’s Improper            3/15/2012          projection for 7(a) purchases, conduct a detailed, and
          Payments                                     objective cost/benefit analysis for payment recapture
                                                       audits of 7(a) purchases.
          FY 2011 Review of                            The Associate Administrator for Capital Access assess
  12-10   SBA’s Improper            3/15/2012          the risk of approving ineligible loans within the 504
          Payments                                     loan program.
                                                       The Associate Administrator for Capital Access adjust
                                                       the testing process for 504 loan approvals to ensure all
          FY 2011 Review of
                                                       necessary documentation is obtained and reviewed
  12-10   SBA’s Improper            3/15/2012
                                                       and a determination is made as to whether the loans
          Payments
                                                       were approved in compliance with the relevant SBA
                                                       program regulations and requirements.
                                                       The Associate Administrator for Capital Access, upon
                                                       revising the improper payments test procedures and
          FY 2011 Review of
                                                       estimating an accurate rate of improper payments,
  12-10   SBA’s Improper            3/15/2012
                                                       develop a corrective action plan for 504 loan
          Payments
                                                       approvals that correctly addresses root causes and will
                                                       reduce improper payments.
                                                       The Associate Administrator for Disaster Assistance
          FY 2011 Review of
                                                       develop a corrective plan that identifies all root causes
  12-10   SBA’s Improper            3/15/2012
                                                       and develop a methodology to reduce the errors
          Payments
                                                       associated with each root cause.
                                                       The Associate Administrator for Disaster Assistance,
                                                       perform detailed analysis of the cost-effectiveness of a
          FY 2011 Review of
                                                       payment recapture audit program. Such analysis
  12-10   SBA’s Improper            3/15/2012
                                                       should conclude whether the benefits of a recapture
          Payments
                                                       program would exceed the costs. If so, a payment
                                                       recapture audit program should be implemented.
          High-Dollar Early-
                                                       The Director, Office of Financial Program Operations
          Defaulted Loans Require
                                                       establish a specialized unit of well-trained, highly
          an Increased Degree of
                                                       experienced loan specialists to perform purchase
 12-11R   Scrutiny and Improved     3/23/2012
                                                       reviews with the level of scrutiny necessary to identify
          Quality Control at the
                                                       all material deficiencies on early-defaulted loans
          National Guaranty
                                                       approved for $500,000 or more.
          Purchase Center
          The SBA’s Office of                          The Associate Administrator for the Office of
          International Trade                          International Trade withhold fund disbursements of
          Inappropriately Awarded                      grant number SBAHQ-11-IT-0047 to the
          a One Million Dollar                         Commonwealth of the Northern Mariana Islands. In
  12-12                             3/30/2012
          State Trade and Export                       the event that funds are disbursed between the
          Promotion (STEP)                             issuance of the draft version and final version of this
          Program Grand to an                          Advisory Memorandum, recover all funds that were
          Ineligible Recipient                         disbursed.




                                                [46]
Appendix VIII: Summary of Significant Recommendations October 1, 2011 - March 31, 2012


Report                                  Date
                   Title                                                Recommendation
Number                                 Issued
          The SBA’s Office of
                                                       The Associate Administrator for the Office of
          International Trade
                                                       International Trade take precautions to ensure the
          Inappropriately Awarded
                                                       Commonwealth of the Northern Mariana Islands or
          a One Million Dollar
  12-12                             3/30/2012          any other ineligible applicant is not awarded a STEP
          State Trade and Export
                                                       grant in future years, unless Congress modifies the
          Promotion (STEP)
                                                       Small Business Jobs Act to make the Commonwealth
          Program Grand to an
                                                       of the Northern Mariana Islands eligible.
          Ineligible Recipient




                                                [47]
                        Appendix IX: Cosponsored and Other Activities


    Name or Subject of                      Name of                        Location of     Date Fully
           Event                          Cosponsor(s)                       Event         Executed
2012 SBA Maryland Small
                            Baltimore DO - Maryland Small Business
Business Week Awards                                                      Woodlawn, MD      2/2/2012
                            Week Awards Program, Inc.
Breakfast and Trade Show
Workshop: Social Media -    Baltimore DO - Business and Professional
                                                                          Timonium, MD     2/27/2012
Recipe for Success          Women
                            Baltimore DO - Baltimore City Small
                            Business Resource Center, MD Department
                            of Business and Economic Development,
                            MD SBDC, Greater Baltimore SCORE
                            Chapter #3, Greater Baltimore Committee,
                            Women Entrepreneurs of Baltimore,
2012 Emerging Leaders
                            Baltimore City Chamber of Commerce,           Baltimore, MD    3/26/2012
(E200)
                            Greater Baltimore Black Chamber of
                            Commerce, Baltimore Hispanic Chamber
                            of Commerce, Baltimore County Chamber
                            of Commerce, Morgan State University
                            Entrepreneurial Development Center,
                            Meridian Management Group, Inc.
                            Boston DO - Hispanic-American Chamber
                            of Commerce, City of Boston Dept. of
                            Neighborhood Dev., University of
                            Massachusetts Amherst through the
2012 Emerging Leaders
                            Massachusetts SBDC, SCORE, Center for          Boston, MA      3/28/2012
(E200)
                            Women & Enterprise, Inc., State Office of
                            Supplier Diversity, First Trade Union Bank,
                            Mercantile Bank, Eastern Bank, Boston
                            Private Bank, Century Bank
                            Cincinnati BO - Greater Cincinnati SCORE
                            Chapter 34, Huntington Bank, First
                            Financial Bank, U.S. Bank, Chase Bank,
                            Fifth Third Bank, Key Bank, PNC Bank,
                            Kemba Credit Union, Sharefax Credit
                            Union, Bad Girl Ventures, Hamilton
Small Business Community    County Development Corporation,
                                                                          Cincinnati, OH   3/23/2012
Outreach Event              Cincinnati Micro-Enterprise Corporation,
                            Community Action Agency, Urban League,
                            Cincinnati Hispanic Chamber of
                            Commerce, African-American Chamber of
                            Commerce, Cincinnati USA Regional
                            Chamber, Corinthian Baptist Church,
                            Office of Ohio State Treasurer
Train Your People, Grow     Connecticut DO-West Hartford Chamber of       West Hartford,
                                                                                           1/31/2012
Your Business               Commerce                                           CT
Women in Business for       Connecticut DO-West Hartford Chamber of       West Hartford,
                                                                                           1/31/2012
Women Who Mean Business     Commerce                                           CT




                                                   [48]
                          Appendix IX: Cosponsored and Other Activities


    Name or Subject of                          Name of                      Location of     Date Fully
         Event                                Cosponsor(s)                     Event         Executed
                              Dallas/Fort Worth Texas DO - North Texas
                              SBDC Network, Dallas Black Chamber of
2012 Emerging Leaders         Commerce, Greater Dallas Asian American
                                                                              Dallas, TX     3/12/2012
(E200)                        Chamber of Commerce, DFW Minority
                              Supplier Development Council, Greater
                              Dallas Hispanic Chamber of Commerce
                              Delaware DO-State of Delaware,
                              Department of Services for Children, Youth
                              and their Families - Office of Child Care
                              Licensing, Delaware State University -
                              Delaware Center for Enterprise
Successful Child Care-The     Development, Delaware Economic
Bottom Line Starts with       Development Office, University of               Dover, DE      3/21/2012
Quality                       Delaware - Delaware Small Business &
                              Technology Development Center, First
                              State Community Loan Fund, State of
                              Delaware - Department of Health & Social
                              Services, Delaware Institute for Excellence
                              in Early Childhood
                              Des Moines DO - Greater Des Moines
                              Partnership, Iowa Department of Economic
                              Development, City of Des Moines Office of
                              Economic Development, The Corp. for
                              Economic Development in Des Moines,
2012 Emerging Leaders         ISED Ventures, United Way of Central
                                                                            Des Moines, IA   2/29/2012
(E200)                        Iowa, VentureNet Iowa, State Public Policy
                              Group, Inc., Iowa SBDC, SCORE,
                              Business Innovation Zone, Neighborhood
                              Dev. Corp., Des Moines Area Community
                              College, Iowa State Bank, Wells Fargo, US
                              Bank, Bankers Trust,
                              Georgia DO-Board of Regents of the
Youth Entrepreneur Series     University System of Georgia - Georgia
                                                                             Atlanta, GA     2/22/2012
Event (YES Event)             Institute of Technology - Georgia Tech
                              Enterprise Innovation Institute
                              Georgia DO - Invest Atlanta dba Atlanta
                              Development Authority, Atlanta Workforce
2012 Emerging Leaders         Development Agency, Women's Economic
                                                                             Atlanta, GA     3/15/2012
(E200)                        Development Agency, Minority Business
                              Development Agency, SCORE Atlanta
                              Chapter
                              Hawaii DO - US Department of
Doing Business with the
                              Transportation - Hawaii, Honolulu              Honolulu, HI    2/10/2012
Government
                              Minority Business Center
HUBZone Outreach Events -     HQ/GCBD - District of Columbia:
                                                                             Washington,
From Job Creation to          Department of Small and Local Business                         2/16/2012
                                                                                DC
Economic Development          Development and Chamber of Commerce



                                                     [49]
                           Appendix IX: Cosponsored and Other Activities


    Name or Subject of                        Name of                      Location of       Date Fully
           Event                            Cosponsor(s)                     Event           Executed
National Small Business                                                    Washington,
                               HQ OCPL-SCORE                                                 1/31/2012
Week 2012                                                                     DC
Work at Home Business          Los Angeles DO - Work at Home Business
                                                                           Glendale, CA       3/6/2012
Workshop                       Expo
                               Maine DO - Maine Centers for Women,
Lender and Business            Work and Community, Federal Reserve
                                                                           Augusta, ME       2/22/2012
Matchmaker                     Bank of Boston, Maine SCORE Chapter
                               305, Federal Home Loan Bank of Boston
                               Montana DO - Helena Young
Leap Into Business: Young      Professionals, Carroll College and the
                                                                            Helena, MT       2/13/2012
Entrepreneur Program           University of Montana – College of
                               Technology
2012 New Mexico Small          New Mexico DO - Santa Fe Community
                                                                           Albuquerque,
Business Week Awards           College through New Mexico Small                              2/29/2012
                                                                               NM
Luncheon and Expo Event        Business Development Center
New Mexico SBA and New         New Mexico DO - New Mexico Small
Mexico SBDC PTAP               Business Development Center Procurement     New Mexico        3/10/2012
Workshops                      Technical Assistance Program
                               Philadelphia DO-Community Action
                               Committee of the Lehigh Valley, Lehigh
                               University Small Business Development
                               Center, Lehigh Valley Economic
Lehigh Valley Lender Match     Development Corporation, Lehigh Valley
                                                                          Bethlehem, PA      1/24/2012
& Business Resource Expo       SCORE, Nazareth Area Chamber of
                               Commerce, Pennsylvania Community
                               Development & Finance Corporation, Slate
                               Belt Chamber of Commerce, Whitehall
                               Area Chamber of Commerce
Meet The Lenders and
                               Philadelphia DO - NBC 10 Philadelphia,     King of Prussia,
Counselors, Southeastern                                                                     3/14/2012
                               SCORE Montgomery County Chapter 513              PA
Pennsylvania
                               Puerto Rico & Virgin Islands DO-Colegio
Federal Contracting
                               de Ingenieros y Agrimensores de Puerto      San Juan, PR       3/6/2012
Matchmaking Event
                               Rico
Small Business Week
                               Puerto Rico DO - Puerto Rico Bankers
Breakfast and Awards                                                       San Juan, PR       3/6/2012
                               Association
Ceremony
Annual Celebration of Small    Richmond DO-Small Business Awards
                                                                          Richmond, VA        2/2/2012
Business in Virginia           Foundation, Inc.
Series of Government           Rhode Island DO - Rhode Island
Contracting & Business         Manufacturing Extension Service - Rhode
                                                                          Providence, RI     2/10/2012
Development Workshops &        Island Procurement Technical Assistance
Matchmaker Events              Center




                                                     [50]
                           Appendix IX: Cosponsored and Other Activities


    Name or Subject of                           Name of                     Location of     Date Fully
         Event                                 Cosponsor(s)                    Event         Executed
                                Rhode Island DO-Office of U.S. Senator
                                Sheldon Whitehouse, Rhode Island Small
Small Business Government
                                Business Development Center, Center for
Contracting Matchmaker                                                      Warwick, RI      2/22/2012
                                Women & Enterprise, Joseph G.E. Knight
Fair
                                SCORE Chapter 13, Rhode Island
                                Procurement Technical Assistance Center
                                Rhode Island DO - City of Providence
Small Business Workshop         Department of Planning and Development,
                                                                            Providence, RI   3/14/2012
Series                          Rhode Island Small Business Development
                                Center, Center for Women & Enterprise
Southwest Veterans'             Santa Ana DO-Southwest Veterans'
Business Resource Center &      Business Resource Center
                                                                              Perris, CA     1/24/2012
SBA Small Business Summit
2012
4th Annual Small Business       Santa Ana DO - Greater Riverside
                                                                            Riverside, CA    3/14/2012
Resource Expo                   Chambers of Commerce
Small Business Week             Santa Ana DO - Inland Empire Small
                                                                            Riverside, CA    3/21/2012
Awards                          Business Development Center
                                Santa Ana DO-Rancho Santiago
                                Community College District Center for
Export Trade Assistance         International Trade Development,
                                                                            Santa Ana, CA    1/24/2012
Program                         Riverside County Economic Development
                                Agency–Office of Foreign Trade, Inland
                                Empire U.S. Export Assistance Center
Modernizing Your Business       Santa Ana DO - Chamber of Commerce for
                                                                            Santa Ana, CA    2/10/2012
in 2012                         Hispanic Entrepreneurs
                                Santa Ana DO-Irvine Chamber of
International Market Insights                                                 Irvine, CA     1/31/2012
                                Commerce, U.S. Commercial Service
Small Business Seminar          Santa Ana DO - City of Cypress -
                                                                             Cypress, CA     3/14/2012
Series                          Redevelopment Projects Office
Women Business Owners           Santa Ana DO - Institute for Women
                                                                            Anaheim, CA      3/21/2012
Conference                      Entrepreneurs, Orange County SCORE 114
                                South Carolina DO - South Carolina
                                Chamber of Commerce, University of
                                South Carolina - Small Business
                                Development Center of South Carolina,
                                South Carolina Department of Commerce,
Salute to Small Business        ECI/Find New Markets, SCORE Midlands        Columbia, SC      3/8/2012
                                SC Chapter, South Carolina Manufacturing
                                Extension Partnership, U.S. Department of
                                Agriculture – Rural Development
                                Administration, U.S. Department of
                                Commerce – U.S. Export Assistance Center
                                St. Louis DO - Small Business Week of
Small Business Week 2012                                                    St. Louis, MO     3/1/2012
                                Eastern Missouri, Inc.
Equal Opportunity &             St. Louis DO - U.S. Equal Employment
Entrepreneurs: In Harmony       Opportunity Commission                      St. Louis, MO    3/14/2012
with the EEOC (via webinar)

                                                      [51]
                           Appendix IX: Cosponsored and Other Activities


    Name or Subject of                           Name of                      Location of      Date Fully
         Event                                 Cosponsor(s)                     Event          Executed
                               Syracuse DO-Entrepreneurship Bootcamp
                               for Veterans with Disabilities, M&T Bank,
                               New York Business Development
                               Corporation, NY Veteran Business
                               Outreach Center, Onondaga Community
OPERATION: Start Up and        College , Onondaga Small Business
                                                                              Syracuse, NY     2/10/2012
Grow                           Development Center, The Tech Garden ,
                               The WISE Women’s Business Center,
                               Martin J. Whitman School of Management
                               - Department of Entrepreneurship &
                               Emerging Enterprises - Falcone Center for
                               Entrepreneurship at Syracuse University
Small Business Excellence      Syracuse DO-New York Business                 Syracuse, NY;
                                                                                               2/10/2012
Award Recognition              Development Corporation                        Albany, NY
                               Syracuse DO - Onondaga SBDC, The
                               WISE Women's Business Center, Syracuse
                               SCORE, CenterState Corp. for Economic
                               Opportunity, The Tech Garden, The
2012 Emerging Leaders          Falcone Center for Entrepreneurship,
                                                                              Syracuse, NY     3/28/2012
(E200)                         SUNY ESF, CNY Technology Dev.
                               Organization, Inc., MACNY, Syracuse
                               University, The Downtown Committee of
                               Syracuse, Inc., The City of Syracuse Office
                               of Neighborhood and Business Dev.
                               Utah DO - Mountain West Small Business
Small Business Awards                                                        Salt Lake City,
                               Finance CDC, Utah Certified Development                          3/8/2012
Luncheon                                                                           UT
                               Company
Vermont Small Business
                               Vermont DO-Vermont Business Magazine          Shelburne, VT      2/8/2012
Award Winners 2012
                               Vermont DO-City of Burlington
                               Community and Economic Development
Spring Business Fair           Office, Champlain Valley Office of            Burlington, VT    2/22/2012
                               Economic Opportunity Micro Business
                               Development Program
                               Vermont DO - Vermont Tech-Vermont
Contracting Workshop           Small Business Development Center,
                                                                             Montpelier, VT    2/27/2012
Series                         Vermont Procurement Technical Assistant
                               Center
Women's Network for
Entrepreneurial Training
                               Wyoming DO-First Interstate Bank               Casper, WY       1/13/2012
(WNET) Business
Roundtables
                               Wyoming DO-Atlantic City Federal Credit       Fort Washakie,
Business Roundtables                                                                           1/24/2012
                               Union, Wind River Development Fund                 WY
                               Wyoming DO - Goshen County Economic
Torrington Business
                               Development Corporation, Wyoming              Torrington, WY    2/10/2012
Roundtables
                               Women's Business Center



                                                      [52]
        Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012


                  Jointly
State   Program                   Alleged Violation(s) Prosecuted                      Legal Action
                   with
                             An individual allegedly used his father’s identity    Individual indicted.
                             to obtain two mortgage loans and an SBA 504
                             loan. In order to get the loans approved, the son
                             allegedly misrepresented that the father owned
 AZ       BL        FBI      various properties and businesses, had large
                             amounts of cash on hand, and earned a six-figure
                             salary. The loss on the SBA loan is over $2.4
                             million.
                             Government officials received bribes from             Seven individuals
                             participants in SBA programs (i.e. 8(a), Alaska       charged, of which four
                             Native Corporation, Service-Disabled/Veteran          have pled guilty. To
                             Owned, etc.) in return for the award of contracts.    date, forfeiture related
                             The same government officials then certified          to this case includes
                    FBI,     receipt of goods and services and authorized          cash, real property,
                   IRS/CI    payment of fraudulent invoices submitted by the       automobiles, and fine
 DC       GC
                  Army/CID   contractors. The contractors then provided a          jewelry.
                    DCIS     portion of the proceeds to the government
                             officials, paid kickbacks to other contractors, and
                             retained portions for themselves. The bribe and
                             kickback payments exceed $20 million.

                             The executive vice-president of a government          Two individuals
                             contracting firm submitted false information to       charged; one pled
                             federal agencies to procure and set prices on         guilty.
                    FBI,
                             federal contracts. A second individual, the
                  VA/OIG,
                             executive vice president of another government
                  GSA/OIG,
                             contracting firm, is alleged to have submitted
 DC       GC      DOL/OIG
                             false information to the SBA regarding his
                   IRS/CI
                             company’s status as both Service Disabled
                  Army/CID
                             Veteran Owned (SDVO) and Historically
                    DCIS
                             Underutilized Business Zone (HUBZone) small
                             business concerns.

                             A former SBA program manager used a                   Former SBA employee
                             government travel card to rent automobiles for        sentenced to 30
                             personal use and forged her supervisor’s              months’ probation and
 DC       IA        None     signature on travel authorizations and vouchers.      $11,735.79 in
                             As a result of the employee’s false claims, the       restitution.
                             government paid fraudulent travel costs totaling
                             $7,919.68.




                                              [53]
        Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012


                   Jointly
State   Program                    Alleged Violation(s) Prosecuted                      Legal Action
                    with
                              Two individuals created an undisclosed affiliate      Two individuals
                              of a larger company in order to bid on                convicted in a jury trial.
                              government small business set-aside contracts.        Jury also determined.
 FL       GC        DCIS      The undisclosed affiliate obtained a $100 million
                              set-aside contract with the Department of Defense
                              for language instruction.


                              The owner of a day care facility conspired with       Owner sentenced to 30
                              another individual to orchestrate what appeared to    months in prison, 36
                              be the sale of the school, via a 504 loan package     months supervised
 GA       BL         FBI      worth $3,175,000. In reality, the owner never         release, and restitution
                              intended to relinquish possession of the school       of $1,675,213.
                              and used the proceeds of the loan to continue to
                              operate the business.
                              The president of a construction company               President indicted.
                              allegedly operated a scheme to fraudulently use
                   VA/OIG,
                              the status of a legitimate service-disabled veteran
                  USDA/OIG,
 GA       GC                  to obtain government contracts set aside for
                  Army/CID,
                              Service-Disabled, Veteran-Owned small
                   DHS/OIG
                              businesses. The contracts obtained were valued
                              at over $2.7 million.
                    IRS/CI,   Two construction companies fraudulently               Both company
                   VA/OIG,    purported to have SBA HUBZone status based            presidents pled guilty
                   GSA/OIG,   upon false claims that their principal places of      on behalf of their
                  USDA/OIG,   business were located in HUBZones and that two        companies to criminal
 ID       GC
                   DOI/OIG,   employees from each company resided in                informations.
                     DCIS,    HUBZones. Contracts obtained as a result of
                    AFOSI     false claims by the two companies total over
                  Army/CID    $1.6 million.
                              A former SBA lender relations officer                 Former SBA lender
                              recommended selling 25 delinquent loans to his        relations officer
                              stepbrother and his son-in-law for substantially      sentenced to 33 months
 IL       IA         FBI      less than they were worth. He did not disclose to     in prison, 3 years
                              the SBA the true value of each loan or the            supervised release, and
                              familial relationships when making the                $400,000 in restitution.
                              recommendations.
                              A former associate director of a federal              Former associate
                              government outpatient pharmacy and his wife           director sentenced to 60
                              created a company to provide temporary                months in prison; wife
                              pharmacists to the government. The company            sentenced to 24
                   VA/OIG,    received SBA certification as a woman-owned,          months’ probation. The
 IL       GC        DCIS,     minority-owned, and 8(a) program participant.         couple and their
                    USSS      The couple allowed another company to                 company ordered to pay
                              masquerade as their company and fraudulently          $400,000 restitution,
                              qualify for set-aside contracts. This scheme          jointly and severally.
                              resulted in the government being billed for more
                              than $8 million in services.

                                               [54]
        Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012


                   Jointly
State   Program                   Alleged Violation(s) Prosecuted                       Legal Action
                    with
                             An individual used the identity of his business        Individual pled guilty.
 KY       BL        USSS     partner, a federal air marshal, to obtain an SBA
                             Express Loan and multiple credit card accounts.
                             An individual misrepresented the location of his       Individual sentenced to
                             primary residence when applying for Hurricane          6 months in a halfway
                             Katrina disaster assistance from multiple              house, 6 months home
                             agencies. He was approved for an SBA loan of           detention, and 2 years
                  HUD/OIG,   $88,000, but only received a disbursement of           supervised release. He
 LA       DL      DHS/OIG,   $10,000.                                               was also ordered to pay
                   MSGA                                                             $55,602.63 in
                                                                                    restitution and a
                                                                                    $10,000 fine.



                             The manager of a construction company and his          Husband and wife both
                             wife, the owner of a financial services company,       sentenced to 18 months
                             submitted fraudulent documentation in support of       in prison, 3 years
                             a $126,300 SBA loan made to their clients, the         supervised release, and
                             SBA borrowers. The borrowers obtained the loan         restitution of $126,300,
                             to make repairs to their residence, which had          to be paid jointly and
                             been damaged by Hurricane Ike. The borrowers           severally.
 LA       DL        None
                             hired the wife’s company to negotiate and
                             finalize the SBA loan through a power of attorney
                             agreement. The husband’s company was
                             responsible for the repairs to the borrowers’
                             residence. The manager and his wife drained the
                             borrowers’ bank account without finishing the
                             work on the family’s home.
                             An individual provided false statements to the         Individual pled guilty
                             SBA when applying for disaster assistance. He          and was sentenced to 60
 LA       DL      HUD/OIG    was approved for a loan of $141,800 based on           months’ probation and
                             damages to his home caused by Hurricane                $31,800 in restitution.
                             Katrina.
                             A pastor was approved for an SBA disaster loan         Pastor pled guilty.
                             totaling $963,900 to rebuild his church, which
                             sustained severe damage as a result of Hurricane
                             Katrina. The pastor did not use the loan funds in
 LA       DL        None     accordance with the Loan Authorization and
                             Agreement. Instead, he used proceeds to
                             purchase real estate, luxury vehicles, fine jewelry,
                             designer fashions, and other items for his
                             personal use.




                                              [55]
        Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012


                  Jointly
State   Program                  Alleged Violation(s) Prosecuted                     Legal Action
                   with
                            Two brothers, joint owners of an investment firm,    Three individuals and
                            and another individual encouraged prospective        the company indicted;
                            borrowers to apply for SBA 7(a) business loans       one pled guilty.
                            using the services of their company. The
                            individuals allegedly submitted fraudulent SBA
                            loan applications and supporting documentation
                            on behalf of their clients thereby falsely
MD        BL       FBI      enhancing the creditworthiness of the borrowers
                            and their businesses. To date, the conspiracy has
                            resulted in losses of over $37 million to the SBA.




                            An individual acted as a broker and recruited        Individual sentenced to
                            “straw buyers” to fraudulently obtain 12 SBA-        61 months in prison, 3
                            guaranteed loans by falsifying equity injections     years supervised
                            and loan disbursements on HUD settlement             release, and
 MI       BL       USSS
                            statements.                                          $8,976,448.77 in
                                                                                 restitution to be paid
                                                                                 jointly with his co-
                                                                                 conspirators.
                            A former bank vice president assisted others in      Former vice president
                            fraudulently securing a $1.6 million SBA-            pled guilty.
                            guaranteed loan by preparing an affidavit falsely
                            representing that a particular loan had never been
MO        BL       FBI      past due.




                            When applying for SBA financing, an individual       Individual pled guilty to
                            purported to have never been charged, arrested,      a superseding
                            or convicted of any criminal offense, when in        information.
                            fact, she had been charged with several such
MO        BL       FBI      offenses. The individual obtained two SBA-
                            guaranteed loans totaling $350,000 for her
                            father’s business.




                                            [56]
        Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012


                   Jointly
State   Program                   Alleged Violation(s) Prosecuted                     Legal Action
                    with
                              A former bank vice president engaged in             Former vice president
                              numerous fraudulent transactions involving both     sentenced to 41 months
                              SBA and non-SBA loans, in order to divert funds     in prison, 5 years
                              to his own personal accounts. His activity          supervised release, and
                  FDIC/OIG,   resulted in a loss of $451,763 to the bank.         $451,763 in restitution.
MO        BL
                     FBI                                                          In addition, he was
                                                                                  barred from holding
                                                                                  any position of
                                                                                  financial trust without
                                                                                  permission.
                              Two individuals set up a “figurehead” service-      Three individuals pled
                              disabled veteran as the purported president and     guilty to criminal
                              operator of a company. The company                  informations.
                              misrepresented itself as a Service-Disabled
                              Veteran-Owned Small Business in order to obtain
                  GSA OIG,    federal contracts. A third individual, a
MO        GC
                   VA OIG     government employee, accepted illegal gratuities
                              in exchange for steering work to the company.
                              The company was awarded a total of $3.4 million
                              in government set-aside and sole source
                              contracts, of which $657,000 were Recovery Act
                              funds.
                              On his SBA loan application, an individual          Individual repaid
                              misrepresented the location of his primary          remaining balance on
                  HUD/OIG,    residence in order to secure a $144,900 Hurricane   SBA loan and was
                  DHS/OIG,    Katrina disaster home loan. Using the same          sentenced to 12 months
 MS       DL
                   MSAO       information, he also received disaster benefits     probation, 6 months
                              from the Federal Emergency Management               home confinement, and
                              Agency and the Mississippi Development              a $2,500 fine.
                              Authority.
                              A husband and wife obtained a $1 million            Husband pled guilty;
                              Hurricane Katrina disaster business loan and        wife entered into a
                              misused the proceeds, including almost $390,000     pretrial diversion.
 MS       DL        FBI       to purchase a 43-foot yacht.




                              An organized group of Korean nationals brokered     Group leader sentenced
                              33 loans, totaling approximately $1.8 million,      to 65 months in prison,
                              using false identities, documents, or business      36 months supervised
                              names. Of the 33 loans, 17 were SBA-                release, and
                   IRS/CI,    guaranteed, resulting in approximately $800,000     $1,134,950.50 in
 NJ       BL
                   ENJPD      of loss to the SBA.                                 restitution to be paid
                                                                                  jointly and severally
                                                                                  with other defendants.
                                                                                  A second individual has
                                                                                  pled guilty.

                                              [57]
        Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012


                   Jointly
State   Program                    Alleged Violation(s) Prosecuted                    Legal Action
                    with
                              Two individuals allegedly provided false and        Two individuals
                              fictitious loan application documents, invoices,    indicted.
                              and additional supporting documentation in order
                              to secure a $1,715,600 SBA-guaranteed Recovery
 OH       BL      FBI         Act loan to open a tire recycling plant.




                              An individual failed to disclose on the SBA Form    Individual sentenced to
                              912 that he had been arrested 22 times. Based on    60 months in prison, 36
 TX       BL       DHS/ATF    this misrepresentation, he received an SBA-         months supervised
                              guaranteed loan of $1,724,800 to build a            release, and restitution
                              restaurant and gas station.                         of $169,517.12.
                              Four individuals engaged in a complex loan fraud    Each of the four
                              scheme, which involved producing fraudulent         sentenced to 5 years’
                              loan documents to induce a lender to issue SBA-     probation. Three of the
                     FBI,     guaranteed 7(a) loans totaling $2,479,000.          four ordered to pay
 TX       BL
                    IRS/CI                                                        restitution in the
                                                                                  amounts of $77,911.76,
                                                                                  $88,001.47, and
                                                                                  $88,147.00.
                              Two individuals conspired with others to            Two individuals pled
                              misrepresent the sources of equity injections and   guilty.
                              down payments relating to two commercial loans
 TX       BL            FBI   totaling over $1.3 million and one SBA-
                              guaranteed loan for over $1.8 million.


                              A physician, who was a co-borrower on an SBA        Physician indicted and
                              disaster loan, allegedly made several material      suspended from her
                              false statements in a mortgage application, which   duties as an assistant
 TX       DL       DHS/OIG    was approved for $417,000 to purchase rental        medical examiner.
                              property from her husband, the other SBA co-
                              borrower.

                              A real estate broker/bank director engaged in a     Broker and his brother
                              false repair invoice scheme to obtain               pled guilty.
                              approximately $1 million in SBA disaster loans.
 TX       DL       DHS/OIG    He directed contractors, family members, and
                              employees to verify and submit more than
                              $750,000 in false repair claims to the SBA.




                                              [58]
        Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012



                  Jointly
State   Program                   Alleged Violation(s) Prosecuted                      Legal Action
                   with
                             An individual, acting as a loan agent, received       Loan agent pled guilty
                             loan applications from potential borrowers and        and was sentenced to 24
                             then inflated the income information provided by      months in prison, 60
 TX       BL       None
                             the applicants and submitted the fraudulent loan      months supervised
                             applications to various banks.                        release, and $409,143
                                                                                   in restitution..
                             A loan broker for a development company               Broker sentenced to 36
                             represented to financial institutions that            months in prison, 36
                             borrowers had paid their required cash injections     months supervised
                             when they had not. The broker would make              release, and restitution
                             copies of checks that borrowers wrote out for the     of $8,581,970.30.
 TX       BL        FBI
                             amounts of their cash injections. The broker then
                             presented the copies of the checks at closing as
                             having been paid even though the checks had
                             never been cashed. The broker received a fee for
                             each loan closed.
                             A businessman made multiple material                  The businessman pled
                             misrepresentations to lenders and the SBA             guilty.
                             regarding the purchase of a Houston motel. The
                             false statements related in part to his submission
 TX       BL        FBI
                             of fraudulent documents as proof that he paid
                             over $700,000 in equity injection in order to
                             obtain an SBA-guaranteed loan of $1,327,000.

                             An individual allegedly made false statements to      Individual charged in
                  DHS/OIG,   several federal agencies in order to obtain           state court.
 TX       DL                 approximately $40,000 in Hurricane Ike disaster
                  HUD/OIG
                             benefits.
                             An individual allegedly forged signatures of his      Individual indicted.
                             estranged wife and others when applying for two
                             SBA disaster loans to repair his residence and a
                             rental property from Hurricane Katrina damages.
 TX       DL       None
                             He also allegedly used the loan proceeds for
                             personal living expenses, rather than to repair the
                             properties. Loss to the SBA was approximately
                             $54,000.
                             The owner of an aviation services company failed      Owner signed a pre-
                             to disclose that the company was delinquent on        trial diversion
 UT       BL       None      federal and state taxes when applying for a           agreement.
                             $900,000 SBA-guaranteed loan.




                                              [59]
           Appendix X: Legal Actions Summary October 1, 2011- March 31, 2012



                          Jointly
State    Program                             Alleged Violation(s) Prosecuted                      Legal Action
                           with
                                        The owner of an information services company         Owner sentenced to
                                        used falsified documents as a basis for his claim    2 years’ probation and a
                         DHS/OIG,       that he was a U.S. citizen when applying for 8(a)    $20,000 fine. In
                         DHS/ICE,       status for his company. He also used the same        addition, owner must
 VA          GC
                         DOS/DSS,       falsified documents to obtain a Department of        cooperate with an order
                         DOL/OIG        Defense security clearance.                          to remove him from the
                                                                                             U.S. and comply with a
                                                                                             denaturalization order.

Program Codes: BL=Business Loan; DL=Disaster Loans; GC=Government Contracting and Section 8(a) Business
Development; IA=Integrity Assurance

Joint-investigation Agency Acronyms: AFOSI=Air Force Office of Special Investigations; Army/CID=U.S. Army/Criminal
Investigation Division; DCIS=Defense Criminal Investigative Service; DHS/ATF=Department of Homeland Security/Alcohol,
Tobacco, Firearms, and Explosives; DHS/ICE=Department of Homeland Security/Immigration and Customs Enforcement;
DHS/OIG=Department of Homeland Security/OIG; DOI/OIG=Department of Interior/OIG; DOL/OIG=Department of
Labor/OIG; DOS/DSS=Department of State/Diplomat Security Service; ENJPD= Englewood New Jersey Police Department;
FBI=Federal Bureau of Investigation; FDIC/OIG=Federal Deposit Insurance Corporation/OIG; GSA/OIG=General Services
Administration/OIG; HUD/OIG=Department of Housing and Urban Development/OIG; IRS/CI=Internal Revenue
Service/Criminal Investigation; MSAO=Mississippi State Auditor’s Office; MSGA=Mississippi State Grant Authority;
USDA/OIG=U.S. Department of Agriculture/OIG; USSS=United States Secret Service; VA/OIG=Department of Veterans
Affairs/OIG.




                                                         [60]
                         Appendix XI: Results of External Peer Reviews


Section 5(a) of the IG Act provides the requirements for reporting the results of peer reviews in OIG
Semiannual Reports to Congress. The following information is provided in accordance with these
requirements.

Auditing

Generally Accepted Government Auditing Standards (GAGAS) issued by the Government Accountability
Office (GAO) require that audit organizations performing audits and attestation engagements in
accordance with GAGAS must have an external peer review performed by reviewers independent of the
audit organization being reviewed at least once every 3 years.

The OIG did not have a peer review conducted during this semiannual reporting period. The last peer
review of the OIG was conducted by the Department of Commerce OIG, which issued its final report on
December 18, 2009. The OIG received a rating of “Pass” in that report (federal audit organizations can
receive a rating of Pass, Pass with Deficiencies, or Fail). There are no outstanding recommendations
from previous peer reviews of the OIG.

Investigations

Section 6(e)(7) of the IG Act, Attorney General Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority, and the CIGIE Quality Standards for Investigations require
external peer reviews of OIG investigative functions be conducted every 3 years.

The OIG was subject to a peer review during this semiannual reporting period. The Department of
Veteran’s Affairs OIG conducted this review. The final report, issued on December 21, 2011, found the
system of internal safeguards and management procedures for the investigative function of SBA OIG to
be in compliance with the quality standards established by the CIGIE and the applicable Attorney General
Guidelines (OIGs can be assessed as either Compliant or Noncompliant). No recommendations were
offered.




                                                 [61]
                   Appendix XII: Office of Inspector General Organization


The OIG is comprised of the immediate office of the Inspector General and four divisions: Auditing,
Investigations, Counsel, and Management and Policy.

The Auditing Division performs and oversees audits and reviews to promote the economical,
efficient, and effective administration of SBA programs and operations.

The Investigations Division manages a program to detect and deter illegal and improper activities
involving SBA programs, operations, and personnel. The criminal investigations staff carries out a full
range of traditional law enforcement functions. The security operations staff ensures that SBA employees
and contractors have appropriate background investigations and security clearances to achieve a high
level of integrity in the Agency’s workforce, and that loan applicants and other potential program
participants are of good character.

The Counsel Division provides legal and ethics advice to all OIG components; represents the OIG in
litigation arising out of or affecting OIG operations; assists with the prosecution of criminal, civil, and
administrative enforcement matters; processes subpoenas, responds to Freedom of Information and
Privacy Act requests; and reviews and comments on proposed policies, regulations, legislation, and
procedures.

The Management and Policy Division provides business support (e.g., budget and financial
management, human resources, IT, and procurement) for the various OIG functions; coordinates
preparation of the OIG’ s Semiannual Report to Congress, Report on the Most Serious Management and
Performance Challenges Facing the SBA, and other OIG-wide reports and documents; maintains the OIG
website; and operates the OIG’ s Hotline.

The OIG headquarters is located in Washington, DC, and has field staff located in Atlanta, GA; Chicago,
IL; Dallas/Fort Worth, TX; Detroit, MI; Denver, CO; Herndon, VA; Houston, TX; Kansas City, MO; Los
Angeles, CA; Miami, FL; New Orleans, LA; New York, NY; Philadelphia, PA; Tacoma, WA; and
Washington, DC. An organization chart for the OIG is shown on page 63.




                                                   [62]
                             Appendix XIII: Office of Inspector General Organizational Chart



                                                        Inspector
                                                         General
                                                                                          Counsel Division
                                                    Deputy Inspector
                                                       General




Auditing Division                                 Investigations Division                           Management and Policy
                                                                                                          Division


                                                                     Office of Security
            Credit Programs Group                                       Operations




             Business Development
                                                                      Eastern Region
               Programs Group




            Financial Management &                                    Central Region
                   IT Group



              Disaster Assistance                                     Western Region
                    Group




                                                            63
                    Make A Difference!


To promote integrity, economy, and efficiency, we encourage you to report
    instances of fraud, waste, or mismanagement to the OIG Hotline.*



                                    Online:
            http://www.sba.gov/office-of-inspector-general/2662



                                        Call:
                             1-800-767-0385 (Toll Free)




                           Write or Visit:
                       U.S. Small Business Administration
                           Office of Inspector General
                             Investigations Division
                        409 Third Street, SW (5th Floor)
                             Washington, DC 20416



   In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act, confidentiality of
   a complainant’s personally identifying information is mandatory, absent express consent by the
                      complainant authorizing the release of such information.
